<html>
<title> - OVERSIGHT HEARING: NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 111-1236]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1236

                          OVERSIGHT HEARING: 
                     NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                              ___________
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
22-441 PDF                   WASHINGTON : 2016                     
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>  
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              
                              
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         GEORGE V. VOINOVICH, Ohio
BERNARD SANDERS, Vermont             CHRISTOPHER S. BOND, Missouri
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 5, 2010
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    10
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    11

                               WITNESSES

Jaczko, Hon. Gregory B., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    13
    Prepared statement...........................................    16
    Responses to additional questions from:
        Senator Boxer............................................    28
        Senator Carper 



    Response to an additional question from Senator Whitehouse...    36
    Responses to additional questions from:
        Senator Udall............................................    40
        Senator Inhofe 



        Senator Voinovich........................................    88
        Senator Vitter...........................................    94
Svinicki, Hon. Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   118
Apostolakis, Hon. George, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   119
Magwood, Hon. William D., IV, Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   120
Ostendorff, Hon. William C., Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   121
Meserve, Richard, President, Carnegie Institution for Science; 
  former Commissioner, U.S. Nuclear Regulatory Commission........   147
    Prepared statement...........................................   149
    Response to an additional question from:
        Senator Carper...........................................   157
        Senator Inhofe...........................................   159
        Senator Voinovich........................................   160
Bradford, Peter A., Adjunct Professor, Institute for Energy and 
  the Environment, Vermont Law School; former Commissioner, U.S. 
  Nuclear Regulatory Commission..................................   162
    Prepared statement...........................................   164
Singh, K.P. ``Kris,'' President and Chief Executive Officer, 
  Holtec International...........................................   170
    Prepared statement...........................................   172
    Responses to additional questions from Senator Carper........   176
    Response to an additional question from Senator Voinovich....   178
Vanderheyden, George, President and Chief Executive Officer, 
  UniStar Nuclear Energy, LLC....................................   179
    Prepared statement...........................................   181
    Response to an additional question from Senator Carper.......   199
    Responses to additional questions from:
        Senator Inhofe...........................................   200
        Senator Voinovich........................................   204

 
            OVERSIGHT HEARING: NUCLEAR REGULATORY COMMISSION

                              ----------                              


                         WEDNESDAY, MAY 5, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Subcommittee) presiding.
    Present: Senators Carper, Inhofe, Voinovich, Alexander, and 
Sanders.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. We can come to order.
    Good morning, one and all. Senator Inhofe and I are happy 
to welcome you. We will be joined by others of our colleagues 
as we get into this hearing.
    Senator Vitter, our Ranking Member, may be in Louisiana. I 
am not sure, but given the threats that they face, my guess is 
both he and Senator Landrieu may be down there today.
    But in any event, we are here, and we are happy that you 
are here. This is a timely hearing. I think it will be 
constructive. I think it will also be instructive, too.
    When Senator Inhofe was the Chair of the Subcommittee, he 
initiated a series of hearings on a regular basis to do 
oversight of the NRC and to help strengthen its ability to do 
its job and make sure they have the resources that they need. 
And we have attempted to continue that tradition, even to this 
day.
    Today's oversight hearing is focused on the Nuclear 
Regulatory Commission and gives us a chance to hear I think for 
the first time, at least before the Senate, from our new full 
complement of Commissioners. And we are very proud, actually, 
of the folks who serve today. We think this is a very strong 
group, and we are anxious to see how you act together and how 
you work as a team. This is the first chance we have had to see 
this.
    But I am going to make an opening statement. I am going to 
recognize Senator Inhofe and others who might come in. Then I 
will give a brief introduction of our witnesses, and then we 
will call on you to speak.
    But we are here today to examine the NRC to see if it is 
meeting its core principles of good regulation in the licensing 
of new reactors and in the oversight process of the current 
nuclear fleet. Over the past 30 years the American public has 
dramatically shifted its views on nuclear energy. Every day, 
more Americans are recognizing that nuclear energy provides 
clean, reliable power and provides good paying American jobs.
    Public confidence in nuclear has risen because Americans 
have seen real clean air benefits from nuclear power. Unlike 
coal-fired plants, nuclear power does not emit dangerous air 
pollutants such as sulfur dioxide, nitrogen oxide and mercury 
or even carbon dioxide, which combined can kill thousands of 
Americans every year.
    In fact, over the past 12 years the current nuclear fleet 
has prevented emissions, I am told, of 8.7 billion metric tons 
of carbon dioxide, 47.2 million tons of sulfur dioxide, and 
18.9 million tons of nitrogen oxide into our Nation's air. As 
our Nation's energy demands grow, we are going to need more 
nuclear power to meet our clean air and our climate goals.
    Public confidence in nuclear has also risen because 
Americans have seen real job opportunities from nuclear power. 
As we will hear today, America's nuclear manufacturers and 
vendors are growing high quality American jobs which produce 
parts, components and services known for quality and safety 
around the world. Building a new generation of nuclear power 
plants would create even more good paying jobs.
    According to an Idaho National Laboratory study, roughly 
38,000 additional manufacturing jobs are expected to be created 
in this country from nuclear power plants construction through 
the year 2020.
    But the main reason that public confidence in the nuclear 
industry has grown over the past 30 years is safety. America's 
104 operating nuclear reactors have become safer. They have 
also become more efficient over the past 30 years, in fact, 
over the last 10 years.
    Today, the nuclear industry has one of the best safety 
records of any industry in the United States. Much of that 
safety record is due to a change in culture within the nuclear 
industry and due to the diligence of the NRC. Every nuclear 
power plant site receives a minimum of 2,000 hours of 
inspections by the NRC personnel each year, paid for by the 
nuclear industry and by ratepayers. The nuclear industry also 
conducts its own independent testing and safety reviews.
    As I like to say, if it isn't perfect, let's make it 
better. Today, we will explore how we might make the NRC even 
more effective through the prism of the NRC's five founding 
principles of good regulation: independence, openness, 
efficiency, clarity, and reliability. There is probably an 
acronym for that, but I am not going to go there.
    In reading your testimony today, I am reminded that is an 
acronym for almost everything. This is probably a good point 
for me to say I don't like acronyms. NRC is fine. We had a 
hearing last month where one of the fellows testifying in one 
sentence, he had four acronyms, each of which had other 
meanings in other contexts. So I would ask you, stay away from 
those acronyms, and it will make me a happier Chairman.
    As the oversight committee on nuclear safety, it is our job 
to make certain that safety is the No. 1 priority for the 
nuclear industry and for the NRC. It is also our job to make 
certain that the NRC remains a strong, independent and 
effective regulator, a regulator that acts decisively, acts 
openly and transparently, and produces results and is worthy 
for the public's confidence.
    Let me close by again thanking each of our witnesses for 
joining us here today. I want to thank you for your service to 
our country. It is an important and valuable service that you 
are performing. We look forward to your testimony. We look 
forward to the questions that will follow and the discussion 
that will ensue.
    And with that having been said, let me now recognize the 
former Chairman of this Subcommittee, who shares the interests 
of Senator Voinovich and Alexander and I on these issues.
    Senator Inhofe.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    We are here today to examine the Nuclear Regulatory 
Commission (NRC) to see if it is meeting its core principles of 
good regulation in its licensing of new reactors and in its 
oversight processes of the current nuclear fleet.
    Over the past 30 years, the American public has 
dramatically shifted its views on nuclear energy. Every day, 
more Americans are recognizing that nuclear energy provides 
clean, reliable power and provides good paying American jobs.
    Public confidence in nuclear has risen because Americans 
have seen real, clean air benefits from nuclear power. Unlike 
coal-fired power plants, nuclear power does not emit dangerous 
air pollutants--such as sulfur dioxide, nitrogen oxide, mercury 
or carbon dioxide--which kill thousands of Americans every 
year.
    In fact, over the past 12 years the current nuclear fleet 
has prevented emissions of 8.7 billion metric tons of carbon 
dioxide, 47.2 million tons of sulfur dioxide, and 18.9 million 
tons of nitrogen oxide into our Nation's air.
    As our Nation's energy demands grow, we are going to need 
more nuclear power to meet our clean air and climate goals.
    Public confidence in nuclear has also risen because 
Americans have seen real job opportunities from nuclear power.
    As we will hear today, America's nuclear manufacturers and 
vendors are growing high quality American jobs, which produce 
parts, components, and services known for quality and safety 
around the world.
    Building a new generation of nuclear power plants would 
create even more good paying jobs. According to an Idaho 
National Laboratory study, roughly 38,000 additional nuclear 
manufacturing jobs are expected to be created in this country 
from new nuclear power construction through 2020.
    But the main reason that public confidence in the nuclear 
industry has grown over the past 30 years is safety. America's 
104 operating nuclear reactors have become safer and more 
efficient over the past 30 years.
    Today, the nuclear industry has one of the best safety 
records of any industry in the United States. And much of that 
safety record is due to a change in culture within the nuclear 
industry and due to the diligence of the NRC.
    Every nuclear power plant site receives a minimum of 2,000 
hours of inspections by the NRC personnel each year, paid for 
by the nuclear industry and by rate payers. The nuclear 
industry also conducts its own independent testing and safety 
reviews.
    But as I like to say, if it isn't perfect, make it better.
    Today we will explore how we might make the NRC even more 
effective through the prism of the NRC's five founding 
principles of good regulation--independence, openness, 
efficiency, clarity, and reliability.
    As the oversight committee on nuclear safety, it is our job 
to make certain that safety is the No. 1 priority for the 
nuclear industry and the NRC.
    It is also our job to make certain that the NRC remains a 
strong, independent, and effective regulator. A regulator that 
acts decisively, that acts openly and transparently, that 
produces results and is worthy of the public's confidence.
    Let me close by again thanking each of our witnesses for 
joining us here today. We look forward to your testimony and to 
the questions and discussion that will follow.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    You said something that kind of sparked a memory in me. 
When I first became Chairman of the Subcommittee, at that time, 
of course, Republicans were in the majority, the NRC hadn't had 
an oversight hearing in 12 years. And so we started into that. 
I said a little bit about this, Mr. Jaczko, to you in my 
office. We set up something where we would have certain things 
that were going to be happening in the future, and then had 
oversight hearings every 6 months, and it worked real well.
    Then along came Senator Voinovich. He was such an 
attractive addition to this Committee because when he was 
Governor of Ohio, he was kind of the expert in the Governors' 
Association on air issues and nuclear issues. So he also has 
chaired this Subcommittee. So you have three of us up here now.
    I want to say welcome to our new Commissioners, 
particularly now since I have learned how to pronounce 
Apostolakis. And Mr. Magwood, it is good to see us all with a 
full complement here.
    Senator Carper. Would the gentleman yield?
    Senator Inhofe. Yes.
    Senator Carper. If you look at the names of at least our 
first three witnesses, I think there has got to be a 
requirement for tough names in order to even be considered for 
this Commission. You don't make it easy for us.
    [Laughter.]
    Senator Inhofe. Acronyms might be better.
    [Laughter.]
    Senator Inhofe. Anyway, we are beyond that now, and we are 
having these oversight hearings. We all, I think, want the same 
thing. Certainly, we up here are all united in wanting to get 
these licenses moving. We want to get deadlines adhered to.
    The Bipartisan Policy Center noted in its recent review 
that there have been problems in the process, which is not 
surprising since no one has licensed a new plant in some 30 
years. And I share the Center's view that both the NRC staff 
and the industry have been diligent in working through real 
challenges.
    They also noted, ``nearly all applicants indicate that 
certainty in scheduling is more crucial than speed.'' And I 
would add the word, something that we can anticipate is going 
to happen so that we would now. Because there are a lot of 
moving parts out there in terms of people in the financial 
community and others. We want predictability as well as 
certainty.
    Two and a half years have passed and NRC has yet to 
indicate whether it expects to issue any licenses. This raises 
questions of reliability in management. The Commission 
testimony states, ``By 2012, the NRC may be approaching a final 
decision on the first of the COLs.'' Then again, it may not. 
That is hardly a recipe for predictable licensing.
    I am glad to hear the Commission's high regard for the NRC 
staff and its reliability to conduct efficient, predictable and 
thorough reviews. The NRC staff and license applicants are 
laboring to produce safety evaluation reports and environmental 
reports according to schedules outlined by the NRC staff.
    This part of the process is the bulk of the new plant 
license review that resolves the vast majority of issues and 
questions. I am pleased that there is a basic schedule for 
managing this large and complex workload.
    But following the conclusion of the staff's review, there 
is no schedule. The NRC reliability principles state, 
``regulatory action should always be decisively administered so 
as to lend stability to the nuclear operational and planning 
process.'' Let me say that planning the construction of $15 
billion nuclear plants is a very complex process. How can these 
companies develop a construction schedule and plan the hiring 
of 3,000 construction workers if they don't know when they can 
start? And how can investors feel confident about backing these 
projects if the agency itself is either incapable or unwilling 
to predict when it will finish its work?
    The Commission indicates in its testimony the Commission is 
fully confident that the agency can successfully and 
efficiently meet its regulatory responsibilities with regard to 
these matters.
    I am glad to hear that, but it is high time the Commission 
lead by example and give stakeholders a reason to have 
confidence. The NRC should make clear to the public, the 
applicants, and the investors how it is managing new plant 
licensing. They can do this by establishing a transparent 
process with complete schedules and milestones to measure 
results. And I am hoping that is exactly what we will do. That 
is kind of our challenge to you folks.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I want to start by saying welcome to our three new 
commissioners, Magwood, Ostendorff, and Apostolakis. It's good 
to see the NRC with a full complement of commissioners. I 
appreciate Senators Carper's and Vitter's focus today on the 
NRC's Principles of Good Regulation. These principles can help 
the public evaluate the NRC's effectiveness as a regulator. I 
will focus my remarks on the new plant licensing process 
measured against the last principle: reliability.
    The NRC has been reviewing applications for new nuclear 
plants for over 2 and a half years. As the Bipartisan Policy 
Center noted in its recent review, there have been fits and 
starts in the process--which is not surprising since no one has 
licensed a new plant in 30 years. I share the Center's view 
that both the NRC staff and the industry have been diligent in 
working through real challenges.
    The Center also noted, ``Nearly all applicants indicated 
that certainty in scheduling is more crucial than speed.'' I 
share that view and remain concerned with the lack of complete 
and publicly available schedules. Two and a half years have 
passed, and the NRC has yet to indicate when it expects to 
issue any licenses. This raises questions of reliability and 
management.
    The Commission's testimony states, ``By 2012, the NRC may 
be approaching a final decision'' on the first COLs. Then 
again, it may not. That's hardly a recipe for a predictable 
licensing process.
    I'm glad to hear the Commission voice high regard for the 
NRC staff's ability to conduct efficient, predictable, and 
thorough reviews. NRC staff and license applicants are laboring 
to produce Safety Evaluation Reports and Environmental Reports 
according to schedules outlined by the NRC staff. This part of 
the process is the bulk of the new plant license review and 
resolves the vast majority of issues and questions. I'm pleased 
that there is a basic schedule for managing this large and 
complex workload.
    But following the conclusion of the staff's review, there 
is no schedule.
    NRC Reliability Principles state, ``Regulatory actions 
should always be . . . decisively administered so as to lend 
stability to the nuclear operational and planning processes.'' 
Let me say that planning the construction of $15 billion 
nuclear plants is a very complex process. How can these 
companies develop a construction schedule and plan the hiring 
of 3,000 construction workers if they don't know when they can 
start? How can investors feel confident about backing these 
projects if the agency itself is either incapable or unwilling 
to predict when it will finish its work?
    The Commission indicates in its testimony, ``The Commission 
is fully confident that the agency can successfully and 
effectively meet its regulatory responsibilities with regard to 
all these matters.'' I'm glad to hear that, but it's high time 
the Commission lead by example and give stakeholders a reason 
to have confidence. The NRC should make clear to the public, 
applicants, and investors how it is managing new plant 
licensing; it can do this by establishing a transparent process 
with complete schedules and milestones to measure results.

    Senator Carper. Thank you, Senator Inhofe.
    Senator Voinovich. Another former Chairman. George and I 
have been working these issues for a long time.
    It is great to see you, George.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you.
    I would like to publicly congratulate Senator Carper on 
doing an outstanding job as Chairman of this Subcommittee. I 
was concerned that after I did not have the chairmanship where 
we were going. And Senator Carper, as he has in the past, when 
I was Chairman of the National Governors Association, he became 
Chairman. He did a better job than I did. We are both active in 
the Jobs for America's Graduates. He was Vice Chairman, then 
became Chairman. Did a better job.
    I just want to say that I am really tickled that Senator 
Carper has taken this on and is giving it the attention that it 
deserves, because it is very, very important at this time. I 
just want to publicly thank you, Tom, for what you are doing.
    Senator Carper. The Chair will yield as much time as the 
gentleman from Ohio needs.
    Senator Voinovich. OK, thanks.
    [Laughter.]
    Senator Carper. Let me just say, I stand on the shoulders 
of those who came before, both in the NGA and Jobs for 
America's Graduates, on this Committee and Subcommittee. It is 
just a joy to work with George.
    Senator Inhofe. Lamar, you and I are left out of this thing 
aren't we?
    Senator Alexander. So far.
    [Laughter.]
    Senator Carper. Not for long.
    Senator Voinovich. Anyhow, I would like to welcome the 
Commissioners and the panelists, and I look forward to hearing 
your testimony.
    It is heartwarming to see we have a full panel today, five 
Commissioners. And I made a promise to a former Commissioner, a 
man by the name of Ed McGaffigan. And he was on his last legs, 
and he came to see me in my office. And he made me promise that 
I would continue to take an interest in the NRC as much as I 
had been, and that I would do everything in my power to make 
sure that we had outstanding people as Commissioners.
    And Mr. Chairman, I am very, very proud of the people that 
are sitting in front of us. They are an outstanding group of 
individuals and we are lucky to have the quality of individuals 
that we have that are on the Commission.
    Mr. Chairman, as you know, I have spent the better part of 
10 years involved in shaping nuclear energy policy for the 
country. During that time, the Committee has focused a great 
deal of time and effort on oversight of the NRC. We did this 
primarily to make sure it was doing its job ensuring the safety 
and security of our Nation's nuclear plants, but also to ensure 
that the NRC was ready to meet the challenge of enabling a 
nuclear renaissance in this country.
    I take great pride in the fact that this Committee has 
helped the NRC become one of the best and most respected 
regulatory agencies in the world. If imitation is the sincerest 
form of flattery, then the world is paying NRC a very high 
compliment because most of the countries in the world today 
adopt the NRC standards and practices.
    On a personal note, I was at the Santa Fe Seminar on 
Nuclear Energy in November of last year. I met with the 
Japanese representatives. They sought me out just to let me 
know how much they thought of our NRC and the fact that they 
thought it was the gold standard in the world.
    We worked very hard as a Committee to place the right 
people on the Commission, and I have already talked about that. 
The thing that I am also very proud of is that the NRC, and I 
don't know if the Commissioners know that, is known as the best 
place to work in the entire Federal Government, the best place 
to work.
    Nevertheless, the Committee and the NRC have got to remain 
vigilant. Although the operating performance of today's plants 
has continued to improve, both industry and the NRC must remain 
focused on safety, or we are going to lose the public support 
for nuclear power. Just see what has happened now with that oil 
rig down there and what it has done to the people's feeling 
about going after more oil.
    For those at the hearing, I want to reinforce that we all 
understand that nuclear safety is a global issue. A reactor 
accident anywhere in the world will greatly affect public 
support for nuclear power here in the United States. This means 
that industry and the NRC cannot be inwardly focused on the 
U.S. and instead must monitor developments internationally and 
coordinate safety information with the appropriate nuclear 
authorities.
    Enhancing public support is absolutely essential for the 
rebirth of this industry.
    And our country does need nuclear power. I like to tell 
people nuclear is a three-fer. It provides the reliable 
baseload electricity our country demands. People forget about 
that. It is 20 percent of our energy; 70 percent of our clean 
energy comes from nuclear. It will help us reach our goal of 
reducing carbon emissions and it will strengthen our 
manufacturing base and create good paying jobs.
    Mr. Chairman, I wasn't aware of how many jobs it is 
predicted they are going to have during the next 10 years.
    As demonstrated by President Obama's recent call for 
increased use of nuclear power in the State of the Union 
Address and the DOE's fiscal year budget for 2011, an 
additional $36 billion for nuclear loans are going to be 
provided. I think that momentum is building and the policy 
environment in the U.S. is shifting toward the growth of 
nuclear power.
    The Bipartisan Center, Senator Inhofe, you mentioned what 
they did. They came back with a pretty darn good evaluation of 
both sitting down and looking at the Commission and getting 
opinions.
    And Chairman Jaczko, I want to commend you for the great 
job that you are doing as the leader there. The fact that 
people looking over your shoulder have said, hey, these people 
are trying to do the right job. And although there are still 
things that need to be done, and my suggestion would be they 
have some suggestions. And I know in your response, you 
indicated that we start to look at some of those in 2011.
    I would really like to particularly look at the 
environmental studies that have to be made to try and make sure 
that whoever does that has got the gear to get that job done.
    I am also hearing from CEOs of companies that are very 
interested in new plants, not just for new large light water 
reactors but also for the SMRs. And we met recently with 
American Society of Nuclear Scientists. They talked about how 
we have fallen behind after Three Mile Island, and that we have 
this excellent opportunity to get back in the business with 
these modular units, and particularly in light of the fact that 
the cost of the big ones is almost prohibitive, that this is a 
wonderful opportunity for our country and also to not only 
create jobs but get back in the international marketplace.
    And that is one of the things that I am hoping that the 
Commission will look at to see where we are juxtaposed, say, 
with China. China is trying to get into the business, and 
others are. Where are we? And how can we recapture our 
leadership in this area?
    Mr. Chairman, I have spoken too long and exceeded my time, 
but I am just excited to be here today, and Brother McGaffigan 
is looking down at us now, and he has a big smile on his face.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

                Statement of Hon. George V. Voinovich, 
                  U.S. Senator from the State of Ohio

    Chairman Carper, thank you for holding this hearing. I 
would like to welcome the NRC Commissioners and industry 
panelists, and I look forward to hearing your testimony. I note 
with pleasure that we have a full complement of Commissioners 
for the first time in several years.
    I want to share with you at the outset that I had made a 
promise to a friend of mine, the late Commissioner Ed 
McGaffigan, who I greatly respected for his service and 
contributions to our country. I had promised him that I would 
take care of NRC and ensure that the NRC Commissioner positions 
would be filled with high quality people, people who were 
dedicated to enabling the safe use of nuclear materials in the 
U.S. I am pleased to say that I have now been able to honor my 
promise to Ed McGaffigan.
    Mr. Chairman, as you know, I have spent the better part of 
the last 10 years in the Senate involved in shaping nuclear 
energy policy for this country, mainly as Chairman or Ranking 
Member on this Clean Air and Nuclear Safety Subcommittee. 
During that time, this Committee focused a great deal of time 
and effort on oversight of the Nuclear Regulatory Commission 
(NRC). We did this primarily to make sure it was doing its job 
of ensuring the safety and security of our Nation's nuclear 
power plants but also to ensure that the NRC was ready to meet 
the challenge of enabling a nuclear renaissance in this 
country.
    Mr. Chairman, I take great pride in the fact that this 
Committee has helped the Nuclear Regulatory Commission become 
one of the best and most respected regulatory agencies in the 
world. If imitation is the sincerest form of flattery, then the 
world is paying NRC a very high complement, because most of the 
countries in the world today adopt the NRC's standards and 
practices.
    On a personal note, I was at the Santa Fe Seminar on 
Nuclear Energy in November of last year, and the Japanese 
representatives sought me out to tell me what they thought of 
NRC. They were very complimentary, calling NRC approval of 
procedures or designs the ``gold standard'' in the nuclear 
industry.
    We have worked very hard as a Committee to place the right 
people on the Commission, provide the NRC with the right 
resources and tools necessary to do its job, and hold them 
accountable for results. I believe we have been very successful 
in this endeavor, and at the same time we have created the 
positive environment necessary for a high performing 
organization. I think we should take great pride in the fact 
that NRC continues to be ranked as ``the best place to work'' 
among large Federal agencies.
    Nonetheless, both this Committee and the NRC must remain 
vigilant. Although the operating performance of today's plants 
has continued to improve, both industry and NRC must remain 
focused on safety, or we will lose public support for nuclear 
power. For those at this hearing, I want to reinforce that we 
all understand that nuclear safety is a global issue. A reactor 
accident anywhere in the world will greatly affect public 
support for nuclear power here in the U.S. This means that 
industry and the NRC cannot be inwardly focused on the U.S. and 
instead must monitor developments internationally and 
coordinate safety information with the appropriate nuclear 
authorities. Enhancing public support is absolutely essential 
for a rebirth of the nuclear industry.
    And our country does need nuclear power. I like to tell 
people nuclear is a three-fer: it provides the reliable, base 
load electricity our country demands; it will help us reach our 
goal of reducing carbon emissions; and it will strengthen our 
manufacturing bases and create good paying jobs. As 
demonstrated by President Obama's recent call for increased use 
of nuclear power in his State of the Union address and the 
DOE's fiscal year 2011 budget request for an additional $36 
billion for nuclear loan guarantees, I think that momentum is 
building, and the policy environment in the United States is 
shifting toward the long awaited growth in nuclear power.
    The Bipartisan Policy Center (BPC) issued its independent 
assessment report of the new reactor licensing process on April 
6, 2010. This was a very positive report. The Center's 
assessment was that the NRC and industry have done a remarkable 
job under trying circumstances during this initial licensing of 
new nuclear power plants. It speaks very well for making the 
nuclear renaissance in the U.S. a reality. I'd like to commend 
Chairman Jaczko and the NRC Commissioners, the NRC staff, and 
the nuclear industry for their coordinated effort and hard work 
demonstrated to date. Keep up the good work.
    While the BPC report is very encouraging, we must keep the 
momentum going. I am very concerned that we are allowing our 
global leadership in nuclear power to erode. I have been 
informed that we have actually fallen behind in this key U.S. 
technology--reportedly China is breaking ground on building a 
new fleet of reactors as we speak.
    I am hearing from the CEOs of companies that they are very 
interested in new plants, but not just for new large light 
water reactors similar to today's plants. They are also very 
interested in the development of small modular reactors (SMRs) 
that are more affordable and adaptable to the specific needs of 
a company. SMRs represent a whole new area where America can 
regain its leadership role and export our technology, and as 
such they represent a very unique and important opportunity for 
us. In particular, the SMRs of light water reactor technology 
build upon our expertise from small Navy nuclear reactors and 
represent a near-term, high technology growth industry for the 
U.S.
    I have met with Mr. Steven Chu, the Secretary of the 
Department of Energy, and DOE is very much trying to support 
the nuclear renaissance, including the development of these new 
SMRs. I believe that many of the pieces of the nuclear puzzle 
are being put into place, which makes it a very exciting time 
for those at this hearing.
    In summary, I believe that today's oversight hearing is a 
very important one. I urge all of us to continue to maintain 
our focus on the safety of operating reactors while we 
thoughtfully address the challenges remaining to enable the 
development of a technology so vital to America's future.
    Thank you, Mr. Chairman, and I look forward to hearing from 
our distinguished panelists.

    Senator Carper. Thank you for invoking that name, George.
    Among the things that unite the four of us on this side of 
the dais is our interest in reducing emissions of sulfur 
dioxide, nitrogen oxide and mercury. And the four of us have 
probably worked as hard as anybody in the Senate on those 
issues. One of the things that draws us together is the 
realization that nuclear power done right can help us reduce 
those emissions and do a lot of other good things as well.
    I am very pleased to be able to partner with Lamar 
Alexander on this issue as we work, and I think are coming 
closer to finding common ground with Senator Inhofe and with 
Senator Voinovich.
    Lamar.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman.
    I salute Senator Carper for his leadership on clean air, 
and Senator Voinovich's years of work on the subject, and 
Senator Inhofe's leadership on the subject. And that was a very 
important statement that you made in the last month and should 
make a great difference.
    This hearing is taking place in the shadow of an oil spill 
that may turn out to be our worst. We are also aware of other 
recent tragedies: coal mine explosions in Virginia, natural gas 
plant explosions in Connecticut, a billion gallons of coal ash 
in Tennessee.
    So when we talk about the risks of nuclear power, I think 
it is important that we compare then with risks of other forms 
of energy. I believe nuclear has something to teach other forms 
of energy.
    Overall, the nuclear industry has an outstanding safety 
record. There have been accidents at nuclear power plants. We 
all think of Three Mile Island, but it is important in light of 
what is happening this week in the Gulf to remember that that 
was a partial meltdown. The containment systems worked. It 
released a non-hazardous radioactive gas. There were no health 
effects of damage to the environment that I am aware of from 
Three Mile Island.
    The latest figures from OSHA show that working in the 
nuclear industry is safer than working in finance, insurance 
and real estate. You are safer doing maintenance or engineering 
work on a nuclear reactor than you would be sitting in front of 
a computer terminal trying to figure out how derivatives work.
    Patrick Moore, the co-founder of Greenpeace, and who is now 
a prominent supporter of nuclear, says he wouldn't mind living 
in a nuclear reactor, which should be no surprise to sailors 
who have been doing that since the 1950s without a nuclear 
reactor accident in the United States. So we can be proud of 
that. But we shouldn't be complacent. We have all seen what 
happened in the Gulf this week. We don't want that to happen in 
the nuclear industry.
    I would like to move along the certifications and licenses. 
I believe climate change is a problem. I think nuclear is the 
preferred solution for carbon-free electricity, but I want to 
make sure we do that as safely as possible. And as we examine 
this today and in other hearings, I want to make sure we weigh 
the dangers of nuclear against what might replace it.
    Twenty-four thousand people die, according to the 
Environmental Protection Agency, every year from coal plant 
emissions. I mentioned other tragedies that we have seen. Well, 
here is another example. We are horrified by what we see that 
may be happening to water fowl in the Gulf of Mexico, but a 
major oil company was fined $600,000 under the Migratory Bird 
Treaty Act for the death of 85 birds not long ago. But the 
American Bird Conservancy says that wind turbines are killing 
275,000 birds a year, just the ones we have, and what if we had 
the 180,000 wind turbines that it would take to produce 20 
percent of our electricity?
    And as we think about the new big wind farm in Cape Cod, in 
scenic Nantucket Sound, we should remember that we can compare 
other costs and benefits. It will produce about the same amount 
of electricity, although it covers an area the size of 
Manhattan Island, that one small modular reactor would produce 
more reliably and over the long term, I believe, at a cheaper 
cost.
    I am enormously pleased with the President's appointments 
to the Nuclear Regulatory Commission. I am glad to have strong, 
sensible members of the Commission, all of them here, who are 
not afraid of nuclear power and who are not afraid to keep it 
safe. That is what we want.
    At the same time, the rest of the world has moved ahead of 
us. There are 56 reactors being built around the world in many 
countries. Only one is about to start in the United States, and 
one hasn't started for 30 years. If we were going to war, we 
wouldn't put our nuclear Navy in mothballs, and if we are 
serious about clean energy, we shouldn't put our nuclear power 
plants in mothballs, either.
    So I congratulate the Chairman on holding this hearing. I 
would think one of our major responsibilities would be 
oversight of nuclear power, as committed as we all are to its 
success and as committed as we all are to its safety. So I look 
forward to spending whatever time you think is necessary, Mr. 
Chairman, in other hearings and meetings as we try to help the 
Nuclear Regulatory Commission do its job.
    Thank you.
    Senator Carper. Senator Alexander, thank you very, very 
much.
    Again, we welcome our panelists today. Our lead-off hitter 
is the Chairman, Chairman Jaczko, and he will be followed by 
Commissioner Svinicki.
    And we have been joined by Senator Sanders. You slipped in 
on me, pal. Welcome. You are recognized. Please proceed.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman. I will 
be brief.
    My views are a little bit different than Senator 
Alexander's, so let me give you the other side of the story. 
The other side of the story is that in the State of Vermont, 
Senators and members of the Commission, we have had a 
significant number of problems with the Vermont Yankee nuclear 
power plant, which is an old plant and had a radioactive 
tritium leak that started in January at levels many times 
higher than EPA's standard for drinking water.
    Tritium is known to cause cancer and birth defects, and 
although no tritium has been detected in area drinking water 
there is evidence that tritium has leaked into the Connecticut 
River, a major river between Vermont and New Hampshire. And the 
entire crisis has severely undermined public confidence in the 
plant. No question about that. I think if you asked the people 
of the State of Vermont today how they feel about the Yankee 
nuclear power plant, I think there is overwhelming distrust of 
the plant.
    And this is in part because Entergy, the operator of the 
plant, misled State officials and the public as to the 
existence of underground pipes at the plant that carried 
radioactive material. They had denied that to members of the 
State legislature.
    As you may know, I in fact strongly support the bipartisan 
decision of the Vermont State Senate, which under Vermont law 
voted 26 to 4, not a close vote, not to extend the operations 
of Vermont Yankee beyond 2012. The vote was 26 to 4 in the 
Vermont State Senate.
    Vermont is showing the Nation that we do not need nuclear 
but that we can in fact rely on energy efficiency and 
sustainable energy. And if there is anything that I think the 
disaster in the Gulf should remind us, it is that technology as 
risky as offshore drilling or in fact nuclear cannot be 99.9 
percent safe. That is not good enough. And I think there are 
other ways to address our energy needs.
    Vermont is a leader in the Nation on energy efficiency. For 
3 consecutive years--and I want to underline this point, and I 
hope my colleagues hear this--we have reduced our electricity 
consumption thanks to cost effective energy efficiency, and our 
people don't live in caves. Our economy is quite as robust, or 
not robust given the recession, as any other economy.
    In Burlington, where I was Mayor from 1981 to 1989, we now 
have a lower unemployment than we do nationally. And today we 
use--and I want to underline this point, Mr. Chairman--in 
Burlington, Vermont, we use only 1 percent more electricity 
today than we did in 1989. And Burlington is a normal 
functioning city.
    And let me put this hearing in the proper context. If over 
the next 10 years every State in the Union cut their electric 
consumption by 1.5 percent per year, a rate slightly less 
aggressive than what Vermont achieves today, we could by 2020, 
according to analysis by the American Council for an Energy 
Efficiency Economy, reduce peak electric demand by 117,000 
megawatts, 117,000 megawatts. That would save--and I want my 
colleagues to hear this--more power than the entire capacity of 
the existing United States nuclear power plant fleet. How is 
that? That is what energy efficiency could do, and would save 
consumers $168 billion on their bills while creating hundreds 
and hundreds of thousands of new jobs.
    Now, I know there are disagreements in this Committee about 
the importance of nuclear, about what we should do in the 
future. I would argue, and I think we have charts here to show 
this, that if you want new energy creation in the United 
States, you know what? Nuclear is the most expensive way to go, 
the most expensive way to go. You want to build new power? Go 
to solar. Go to wind. Go to geothermal. Do not go to nuclear.
    And I would just conclude by simply saying this, and I am 
not a fear monger here, but I would argue that if people are so 
pro-nuclear, they may want to volunteer to replace Yucca 
Mountain. The people of Nevada have spoken pretty clearly 
through their Democratic and Republican Senators here. They 
don't want the waste. And I don't know if Tennessee wants the 
waste. I don't know if Ohio wants the waste. I don't know if 
Oklahoma wants the waste, but you may stand up and say you want 
a Yucca Mountain in your State.
    But we have not solved the waste problem. You are looking 
at an expensive form of technology, and I worry about the 
safety hazards, and there are cheaper and more effective ways 
to go forward to solve our energy crisis.
    Thank you very much, Mr. Chairman.
    Senator Carper. Thank you very much. We could probably 
debate these issues for a while, but the purpose of the hearing 
is to hear from our witnesses and have a good conversation with 
all of you. While we may not agree entirely on this panel on 
the role of nuclear energy and the future of nuclear energy in 
this country, I think maybe we do agree that the cleanest, most 
affordable form of energy is the energy we never use.
    So that I think will unite us, and with that having been 
said, I again will call on Chairman Jaczko to be out lead-off 
hitter as the Chair. We will ask you to keep your comments to 
about 5 minutes, please, and then you will be succeeded by 
Commissioner Svinicki, by Commissioner Apostolakis, by 
Commissioner Magwood, and by Commissioner Ostendorff.
    So I think the Chairman is going to take about 5 minutes. I 
would ask the other Commissioners to take about 3 minutes. And 
if you run a little bit over that, that is OK. If you run a lot 
over that, that is not OK, so we will rein you back in.
    Chairman Jaczko, please proceed. Your entire statement will 
be made part of the record. Please proceed.

        STATEMENT OF HON. GREGORY B. JACZKO, CHAIRMAN, 
               U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Jaczko. Thank you, Mr. Chairman. Good morning to you 
and to the other Members of the Subcommittee.
    The Commission, including my colleagues, Commissioners 
Svinicki, Apostolakis, Magwood and Ostendorff, is pleased to 
appear before you today. And I want to thank the Subcommittee 
as well as the full Committee for your support and leadership 
in the recent confirmations of our new Commissioners.
    With the benefit of their added expertise and insights, the 
Commission stands fully prepared to continue to vigorously 
advance the NRC's mission of protecting public health and 
safety, ensuring the common defense and security, and 
protecting the environment.
    The agency's critical mission entails broad 
responsibilities. We currently license, inspect and assess the 
performance of 104 operating nuclear power plants as well as 
many fuel cycle facilities and research and test reactors. 
Furthermore, nuclear materials are in use at thousands of 
hospitals, universities and other locations around the country.
    The NRC staff, which provides oversight of our licensees, 
is now nearly 4,000 employees strong. And the Commission is 
continually impressed by the staff's expertise, experience and 
commitment to public service.
    The NRC team has remained united by a common set of 
organizational values and principles of good regulation, as the 
Chairman stated in his remarks. Those values and principles 
guide the NRC in accomplishing its mission, engaging the 
public, licensees and other stakeholders openly and 
transparently, and pursuing excellence in all aspects of the 
NRC's work.
    The last few years has been a time of dramatic change for 
the agency, during which the number of NRC employees has grown 
by more than 25 percent and the size of the NRC budget has 
increased by more than 50 percent. To accommodate this growth 
and reconsolidate the headquarters staff, construction will 
soon begin on the NRC's new 14 story office building adjacent 
to our current headquarters. This would not have been possible 
without the support of this Subcommittee, so I want to 
personally thank you, Mr. Chairman, Senator Voinovich, and the 
other members of the Subcommittee for providing the support to 
accomplish that significant milestone.
    To maintain the agency's strong oversight programs, the NRC 
is focused on making progress on longstanding technical issues 
and safety issues as well as addressing emerging issues in a 
proactive and effective way. In recent months age-related 
degradation has attracted widespread public attention in the 
context of buried piping and tritium. This is a public 
confidence issue that requires that both the NRC and licensees 
continually listen to people's concerns and effectively 
communicate what the risks are and what is being done in 
response to these leaks.
    The agency has also not lost sight of its critical security 
mission. A major power reactor security rule went into effect 
in March of this year that addresses issues such as physical 
barriers and detection and assessment systems.
    The NRC has also worked collaboratively with the Federal 
Energy Regulatory Commission to coordinate our roles and 
responsibilities for implementing cybersecurity requirements.
    The agency is also committed, consistent with our 
principles of good regulation, to ensuring that any new 
reactors are licensed, constructed and operated in accordance 
with the NRC's safety, security and environmental regulations. 
At the present time, the agency is actively reviewing 13 
combined license applications for 22 new reactors under the 
Part 52 licensing process.
    By 2012 the NRC may be approaching a final decision on the 
first combined license application for new reactors, as well as 
making final decisions about the operation of the Watts Bar 
Unit 2 nuclear power reactor.
    The Commission is fully confident that the agency can 
successfully and effectively meet its regulatory 
responsibilities with regard to these matters, and do it in a 
way that is consistent with the principles of good regulation.
    One need look no further than the NRC's existing licensing 
processes to see that the agency knows how to do licensing 
reviews. We complete approximately 1,500 reactor licensing 
actions and tasks per year.
    The agency is also actively preparing for the licensing and 
other regulatory work related to the advanced generation of 
reactors, such as the small modular reactor which Senator 
Voinovich referred to.
    And finally, the NRC has also seen greater interest in the 
construction of uranium recovery and enrichment facilities. The 
agency has a strong regulatory framework in place for ensuring 
that these facilities are constructed, operated and 
decommissioned in a safe, secure and environmentally sensitive 
manner.
    The significant issues that I have discussed today make it 
all the more important that the NRC continue to advance its 
mission in an open and transparent way, and the Commission is 
committing to doing so.
    Over the past few months, the NRC has moved forward with 
implementing the President's Open Government Directive. Greater 
openness and transparency, I believe, will build public 
confidence in the agency by highlighting the agency's 
strengths, the experience, expertise and dedication of the NRC 
staff, and the vitality of the members on the Commission 
itself.
    So on behalf of my fellow Commissioners, thank you for the 
opportunity to appear before the Subcommittee. We look forward 
to continuing to work with you to advance the NRC's important 
mission of protecting public health and safety and the 
environment.
    And we would be pleased to respond to any questions that 
the Subcommittee may have.
    Thank you.
    [The prepared statement of Mr. Jaczko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Carper. Mr. Chairman, thank you very much.
    Commissioner Svinicki, please proceed.

  STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you.
    Good morning, Chairman Carper, Senator Inhofe and members 
of the Subcommittee. I appreciate the opportunity to appear 
before you to discuss the NRC's principles of good regulation 
and how the NRC is meeting these principles.
    Originally issued by the Commission in 1991, the principles 
are intended as a guide to agency decisionmaking and the 
individual conduct of NRC employees. They are described as 
fundamental guideposts in ensuring the quality, correctness and 
consistency of our regulatory activities. I believe these 
principles articulate the standards by which the regulated 
community and the broader public should judge the NRC as a 
regulator charged with ensuring the public trust.
    The first principle, that of independence, calls for the 
highest possible standards of ethical performance and 
professionalism but notes that independence does not imply 
isolation. All available facts and opinions must be sought 
openly. Conflicting public interests must be considered, and 
final decisions must be based on objective, unbiased 
assessments of all information, and documented with reasons 
explicitly stated.
    The second principle, openness, describes nuclear 
regulation as the people's business. The public must have the 
opportunity to participate in regulatory processes and open 
channels of communication must be maintained.
    The third principle, that of efficiency, notes that the 
American taxpayer, the rate paying consumer and licensees, are 
entitled to the best possible management and administration of 
regulatory activities, which should also be consistent with the 
degree of risk reduction that they achieve. Regulatory 
decisions should be made without undue delay.
    The fourth principle, clarity, calls for regulations that 
are coherent, logical and practical. Agency positions should be 
readily understood and easily applied.
    The fifth and final principle, reliability, states that 
regulatory actions should always be fully consistent with 
regulations and should be promptly, fairly and decisively 
administered so as to lend stability to the nuclear operational 
and planning process. Most importantly, this principle supports 
the objective that once established, regulations should be 
perceived to be reliable and not unjustifiably in a state of 
transition.
    In issuing the principles of good regulation, the NRC has 
offered to be judged against them. Where we fall short, the 
Congress and the public should challenge us to do better, as 
they sometimes have. Where we can further improve an already 
good process, we should seek to do that as well.
    I appear before you this morning for the first time 
alongside the three new Commissioners to whom the Senate gave 
its unanimous support. I am honored to have colleagues of such 
caliber join the Commission and look forward to working with 
each of them. I am also grateful for this Subcommittee's 
sustained interest in and support of the important work of the 
NRC.
    When I sat before this Committee for my nomination hearing, 
the Senators described for me the many issues and concerns that 
would face the NRC in fulfilling its responsibilities. With 2 
years of service now behind me, I can report to you that I have 
a deep appreciation for the complexity of issues facing the 
NRC. Addressing the agency's current significant workload and 
doing so while fulfilling our principles of good regulation is 
a real and significant challenge.
    The work before us will require the best efforts that we 
have to apply to it, both from the NRC staff and from the 
Commission itself, but the public and the importance of our 
mission demand no less.
    Thank you.
    Senator Carper. Thank you, Ms. Svinicki.
    Commissioner Apostolakis, please proceed.

   STATEMENT OF HON. GEORGE APOSTOLAKIS, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Good morning, Chairman Carper and members 
of the Subcommittee. I thank the Committee for supporting my 
confirmation as Commissioner. I was sworn in on April 23 and I 
have been on the job for all of 7 days.
    I also thank you for holding today's meeting to examine the 
NRC's core principles of good regulation and how the NRC is 
meeting these principles in licensing new reactors and 
oversight processes for the current nuclear fleet.
    I would like to add a few thoughts about the ways in which 
risk information contributes to these core principles. Risk 
information has been crucial in the development of a successful 
reactor oversight process for the current fleet. It focuses our 
attention on items important to safety and allows us to respond 
to inspection findings in a way that is commensurate with their 
safety significance. This process has clearly contributed to 
openness, efficiency and clarity.
    We are currently considering proposals for the development 
of risk informed and performance based revisions to the 
oversight process for fuel cycle facilities. Thus, the 
Commission may be able to advance the principles of good 
regulation through greater use of risk information and analysis 
in the oversight of these facilities also.
    In the context of licensing new reactors, an important 
activity that deserves to be mentioned is the interaction of 
our staff with the Department of Energy to develop a licensing 
plan for the next generation nuclear plant. As reported to 
Congress in 2008, this licensing process is to be risk informed 
and performance based to the extent justified by the quality 
and completeness of the associated Next Generation Nuclear 
Plant (NGNP) design specific probabilistic risk assessment. 
This effort is to be a significant step toward meeting the 
direction of the Energy Policy Act to ``develop risk based 
criteria for any future commercial development of a similar 
reactor architecture.''
    It could also contribute to the development of a technology 
neutral licensing process which would make future licensing 
more effective and efficient.
    Thank you very much, gentlemen.
    Senator Carper. Thank you, Mr. Apostolakis.
    Commissioner Magwood, welcome. Please proceed.

 STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Good morning, Mr. Chairman and members of the 
Subcommittee. I am pleased to join you today as a member of the 
U.S. Nuclear Regulatory Commission. I thank you for your 
support during my recent confirmation, and I wanted you to know 
that my colleagues and I have been working as a team. As a 
matter of fact, Commissioner Ostendorff and I were sworn in at 
a joint ceremony on April 1 as a symbol of our joint activities 
together. And actually, we are planning to take a trip together 
next week.
    This Commission comes together at a time when the Nation's 
interest in expanded use of nuclear energy is at a new high, 
and the agency's workload has increased substantially. In 
addition to our existing responsibilities for overseeing 
nuclear power plants, the NRC is actively reviewing combined 
license applications for 22 new reactors, 19 operating reactors 
are getting new license renewals, and applications for power 
upgrades at 16 plants across the country are currently under 
review.
    We as a Commission would be unable to address these crucial 
issues without the dedicated and talented staff at NRC. Since 
my confirmation, I have had the opportunity to meet with many 
of the staff and been impressed by the breadth of their 
experience, the depth of their commitment to public health and 
safety. With this panel's support, Chairman Jaczko and his 
immediate predecessor, former Chairman Klein, have presided 
over a very substantial expansion of the agency staff that will 
enable us to meet our responsibilities in a timely manner.
    In addition, I applaud Chairman Jaczko's efforts to guide 
this increase in staff while helping to ensure the agency makes 
no compromises on our Nation's high standards for safety, 
security and environmental protection.
    In my brief time with the Commission, I have come to 
believe that the development of strong safety cultures is an 
essential element for the success of all NRC licensees. Without 
a strong safety culture, even the best technology can fail to 
protect the safety of workers, the public and the environment.
    Management at both power reactors and materials licensees 
must continually focus on creating the right type of work 
environment, one that is open and collaborative and allows 
employees to voice dissenting views, which by the way, Senator 
Voinovich, is a value that Commissioner McGaffigan emphasized 
during his tenure. I hope to make development of increasing 
safety cultures a central theme of my tenure on the Commission.
    Finally, Mr. Chairman, I would like to inform you that I 
have decided to publish the calendar of my meetings with 
external groups such as utilities and nongovernmental 
organizations on a monthly basis on the agency's Web site. 
While this information can be illuminating, this raw data about 
which groups with which a Commissioner meets can be easily 
misunderstood and mischaracterized. Because of these risks, I 
neither encourage my fellow Commissioners to take this step, 
nor do I wish my decision to be viewed as a precedent.
    However, as the Commissioner who created the Nuclear Power 
2010 program in a previous position with the Government, I feel 
I have a special obligation to provide this extra measure of 
transparency.
    With that, I thank you for your time and look forward to 
answering any questions you have today.
    Thank you.
    Senator Carper. Thank you, Mr. Magwood.
    Commissioner Ostendorff, welcome. Please proceed.

  STATEMENT OF HON. WILLIAM C. OSTENDORFF, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Mr. Chairman, Senator Inhofe, 
members of the Subcommittee, for the opportunity to be here 
today.
    I also thank the Committee for its support in the 
confirmation process. I applaud the Committee's objective to 
discuss NRC's core principles of regulation and how NRC is 
meeting these principles in the licensing process.
    I have been a Commissioner for just over 1 month. In that 
time, I have had the chance to get out in the field and visit 
various locations. I have seen NRC staff at the headquarters in 
Rockville, Maryland.
    Senator Carper. Mr. Ostendorff, would you bring that 
microphone just a little closer to your lips please. Thanks.
    Mr. Ostendorff. Is that better?
    Senator Carper. That is just fine. Thanks.
    Mr. Ostendorff. I am sorry.
    I have visited Region I up in King of Prussia, 
Pennsylvania; Region II in Atlanta; and the Technical Training 
Center in Chattanooga.
    Since I am a newcomer to the commercial nuclear industry, I 
have made the effort to get out by visiting regulated 
facilities. I have gone to two power reactors at Watts Bar Unit 
1 in Tennessee; Hope Creek in New Jersey; a power reactor under 
construction at Watts Bar Unit 2; a research reactor at the 
University of Rhode Island; a blood irradiator facility in 
Providence, Rhode Island; and a commercial food irradiator in 
New Jersey.
    I would like to share some very brief observations of my 
impressions from those visits. From what I have observed, the 
NRC's principles of good regulation are being followed. 
However, it is important to avoid complacency, as you have 
noted, and it is important to continuously focus on 
improvement.
    I have been very impressed with NRC staff. The resident 
inspectors, project managers, technical reviewers, operator 
license examiners, and managers that I have met have 
demonstrated high levels of competence, enthusiasm and 
commitment to the NRC's mission.
    I have also observed a very open and collaborative work 
environment from thoughtfully taking lessons learned and using 
them to improve the agency. It is evident that the NRC invests 
in its people, and I am honored to part of that team.
    With over 31 years of Federal service, including military 
experience, experience with the House Armed Services Committee 
and Department of Energy, in comparison, my initial impression 
is the NRC is very open in how it performs its regulatory 
functions. The NRC goes to great lengths to make our documents 
publicly available via the Web sites, to listen to views of 
external stakeholders during meetings, and to communicate the 
basis of our activities to the public and other parties.
    I would like to note how professional the NRC team has 
worked and evolved its existing reactor oversight process using 
stakeholder feedback and lessons learned.
    Therefore, I am confident that in a similar fashion, the 
NRC and its staff will capture feedback and lessons learned, 
including the insights provided by the Bipartisan Policy Center 
to improve the NRC's processes for licensing new reactors.
    In closing, I again thank the Subcommittee for its support. 
I look forward to answering your questions.
    Senator Carper. Thanks very much, Captain Ostendorff. Nice 
to have you on board today.
    Looking over your left shoulder, I see a fellow that I 
think Senator Sanders and I once served with for a number of 
years in the House, Jim Saxton sitting down in the front row.
    Congressman Saxton, it is very nice to see you, and 
welcome.
    I want to start off by just asking a quick question. Don't 
spend a lot of time on this, but how are the five of you coming 
together as a team?
    We will just start, Commissioner Ostendorff, with you. How 
are you all coming together as a team? Three new people. We 
think it is an excellent, excellent line up of Commissioners, 
but how is it coming together?
    Mr. Ostendorff. I think it is coming together very well, 
Mr. Chairman. We meet one on one to share views with each other 
on a weekly basis. We also have had probably two meetings a 
week in a public setting to discuss issues after receiving 
briefings by the staff, and I think we are off to a great 
start.
    Senator Carper. Good.
    Mr. Magwood.
    Mr. Magwood. Mr. Chairman, I am quite pleased with the way 
we have worked together so far. We have coordinated very 
closely on several important issues. As Commissioner Ostendorff 
mentioned, we meet together on a one on one basis on a very 
regular basis. There is lots of traffic back and forth between 
our offices. And our staffs also work very well together.
    As a matter of fact, I also wanted to thank Commissioner 
Svinicki and Chairman Jaczko for the help they have provided in 
getting my staff and myself up to speed with how to operate in 
the environment of the NRC.
    So I think it is going very well.
    Senator Carper. Good. Thank you.
    Dr. Apostolakis.
    Mr. Apostolakis. Mr. Chairman, I second what my two 
colleagues just said.
    Senator Carper. Thank you.
    Commissioner Svinicki.
    Ms. Svinicki. As I noted, the caliber of my colleagues is 
very impressive, and I appreciate the Committee's recognition 
that a five-person Commission functions best. Procedures are 
always optimized around a certain number, and a full Commission 
I think most effectively moves the business forward. So thank 
you.
    Senator Carper. Good.
    Chairman Jaczko.
    Mr. Jaczko. Well, I would agree with everything that has 
been said.
    Senator Carper. Thank you.
    Recently, we have seen several nuclear power plants 
reporting tritium leaks. And I believe that these leaks were 
found because the plants were participating in what I think was 
a voluntary monitoring program. I would like to ask, is that 
correct? Are they participating in a voluntary monitoring 
program?
    And second, do you think the voluntary monitoring program 
is working?
    Mr. Jaczko. Mr. Chairman, plants are required to monitor 
releases of radioactive materials on a regulatory basis by the 
NRC. But in an effort to do a better job of earlier detection 
of leaks of tritium that don't necessarily have an impact on 
public health and safety, the industry initiated a program 
several years ago to begin more actively monitoring releases of 
material on the reactor sites themselves.
    So from a regulatory perspective, they are required to 
monitor very closely their releases off the reactor site, but 
onsite, they have now an enhanced voluntary program to monitor 
these releases.
    I think the impact has been much greater openness, much 
greater awareness of the real risks that are out there. And 
what we have seen is with all of these leaks, they have not 
posed a threat to public health and safety. They have not posed 
an immediate threat to the safe operation of the facilities.
    So right now, I think we have a good program in place, but 
I think consistent with the principles of good regulation, the 
agency is moving forward to look at lessons learned to see if 
there are things we can do to enhance this program. And so the 
staff established a task force to look at tritium and see if 
there are other ways to deal with some of these situations, and 
we are anticipating that task force will be publishing their 
findings in the coming weeks. And I think that will provide 
some interesting information for the Commission to look at, 
possibly some policy issues to address, and perhaps some 
changes in our practices.
    Senator Carper. Good.
    Any other Commissioners, please feel free to add to those 
comments.
    OK.
    For new license applications, what concretely can we do to 
ensure that the next tranche of applications is processed a bit 
more smoothly? The Bipartisan Policy Center study will be 
represented here later in the second panel. The Bipartisan 
Policy Center study suggests that the new licensing process 
will improve over time, and we hope that is true.
    Could you all talk with us just for a little bit about how 
the NRC might apply lessons learned to date and to increase 
clarity for applicants?
    Mr. Jaczko. Mr. Chairman, after the Bipartisan Policy 
Center report came out, I asked the staff to be prepared to 
look at lessons learned from the current process to see if 
there are ways that we can make enhancements and improvements, 
while still maintaining the right focus on safety and security.
    We don't want to do that at this point because it would be 
a little bit like trying to change the tires on a car that is 
driving down the highway at 80 miles an hour. So we want to get 
through this current wave and complete our reviews, and then 
really be able to take a good look at lessons learned.
    But there is clearly one issue that stands out right now 
that I think has been driving most of the schedules and most of 
the activities, and that has to do with the actual design 
review work itself. The agency in the late 1980s and early 
1990s established a new process that would change the way 
licensing was done. And one of the enhancements to that was to 
allow vendors to separately have a design approved irrespective 
of a particular site application. And right now it is really 
that design work that is providing most of the bulk of the work 
and most of the time of the activity from the staff, as well as 
from the vendor.
    So I think the biggest enhancement that we will have after 
this first wave is completed is that we expect that some of 
these designs will be approved, and then those designs will be 
finalized and then the licensees would have the ability for 
future construction to turn to some of those existing designs, 
which should significantly simplify the process of new reactor 
licensing.
    Senator Carper. Thank you.
    Any other Commissioners want to briefly comment as well?
    Ms. Svinicki.
    Ms. Svinicki. Just as a very brief supplement to what 
Chairman Jaczko stated. At the NRC staff level, I want to give 
them credit that they are looking at this as they are moving 
reviews along right now. Albeit modest, there are efficiency 
gains. They are looking at whether there are things that can be 
done in parallel instead of series. Already, even prior to my 
arrival on the Commission, they have been able to squeeze a few 
months out of the schedule.
    So at the working level, they are looking at it constantly.
    Senator Carper. Good. Thank you.
    Dr. Apostolakis.
    Mr. Apostolakis. I support my colleagues. I agree with what 
Chairman Jaczko said. I just want to point out that we do have 
a case where this process was implemented and very 
successfully. The staff put together a so-called GALL Report, 
Generic Aging Lessons Learned report, after the first two or 
three reviews of applications for license renewals. That was 
considered universally as a major milestone, and people use it 
extensively.
    So I believe putting together a report like this after the 
first maybe one or two or three license applications have been 
approved would be, I mean, we have a precedent that we can do 
that. Thank you.
    Senator Carper. Good. Thanks very much. OK.
    Mr. Magwood, did you want to make a comment, just very 
briefly, Mr. Magwood? Then Mr. Ostendorff.
    Mr. Magwood. Just a very brief comment. I agree with my 
colleagues on this issue. I make an observation that before we 
performed the first license renewal there was a lot of concern 
about how long it would take and how complicated the process 
would be. I think that the experience that was gained 
especially after the first few shows that it is now a very 
stable process, highly predictable process. I think it is one 
that shows that the agency does learn lessons as it goes 
forward. I fully expect that will be the same story with COL 
applications.
    Senator Carper. Good. Thank you.
    Mr. Ostendorff.
    Mr. Ostendorff. I would just add one anecdote. Last Friday, 
I was in a briefing with NRC staff at headquarters. About eight 
staff were there from the Licensing Division. I was impressed 
with the demographic spread. Some people had been there 30 
years. Some people had been there 5 years and in between. I was 
heartened to see the mentorship coaching going on to capture 
those past experiences, to bring them to the present day.
    Senator Carper. Good. Thank you.
    OK, I have used about 8 minutes, and I will ask each of my 
colleagues, you are entitled to 8 minutes, so have at it.
    You are recognized, Senator Inhofe.
    Senator Inhofe. Let me first of all say to Commissioner 
Ostendorff, I was with your son actually at Fort Sill, I think 
it was last Friday, and I just want everyone to know that you 
come from a military family. You have had experiences with 
nuclear submarines personally. Your son, the Captain, was 
injured I guess in Iraq and had to have reconstructive surgery, 
so we all wish him the very best.
    Since you did have that experience, I think it was Senator 
Alexander who talked about our background and the experience we 
have had with nuclear submarines. Would there be any comments 
you want to make in terms of safety that would draw from your 
own personal experience?
    Mr. Ostendorff. I would say, Senator Inhofe, it was high 
level. Just by comparison, when I took command of a submarine 
back in 1992, USS Norfolk, it was a Los Angeles class nuclear 
attack submarine. I was in command for 3 years. And at that 
time, there were 55 other submarines in that same class in the 
United States Navy.
    A problem or material issue identified with one component 
in that plant was pretty well understood because of the 
commonality across the other submarines in the fleet. By way of 
comparison to what I am seeing here in my very brief time in 
the NRC, I would say the degree of difficulty, whether you are 
using a gymnastics or diving experience in the Olympics, the 
degree of difficulty of this effort with NRC staff I think 
quite frankly is much more complex than my military experience 
in the Naval Reactors Program. So it is going to take I think a 
bit longer time than what I was used to in a different setting.
    That said, I think the same core competence, qualification, 
due diligence principles I saw in the Naval Reactors Program 
are clearly evident in the NRC's processes.
    Senator Inhofe. Thank you very much.
    Commissioner Magwood, both you and Commissioner Svinicki 
talked about the successes, really, in the 59 reactors' 
renewals that have taken place. And I think it was you, 
Commissioner, who made reference to the fact that it was slow 
at first, and it got better. That happened right after we 
started doing the oversight in 1997. And I looked at that, and 
appreciate the fact that you both brought that up, because that 
is kind of a model that I would like to see take place in terms 
of new licenses.
    Commissioner Svinicki, you talked about the successes of 
the NRC at the working level and the fact that it is more 
predictable now. They have been able to get a lot of these 
things done. I am thinking now on the Commission level. I 
talked to Commissioner Jaczko in my office about trying to come 
up with some guidelines, some kind of predictability on what we 
would be able to do at the Commission level.
    Now, the Commission level for final approval is a step that 
should be done, as I understand the process, fairly rapidly. 
All of the real hard work is done at the working level that you 
referred to. So I would like to have each one of you give me an 
idea is there any way you can get together and come up with 
something and say, it is going to take approximately this long 
once the working level is done, and it comes to the Commission 
for final approval.
    Recognizing unforeseen things can happen. I understand 
that. But so that we would have some idea, not just we, but 
people who are looking for financing, people who are looking 
for support, would have some general idea about to look forward 
to.
    Let's start on this side with Commissioner Ostendorff. Do 
you think that you could get your heads together and come up 
with something that would be a target for performance at the 
final Commission level?
    Mr. Ostendorff. Senator, that is a very insightful 
question. I would comment that we have been briefed on, and I 
am aware of the milestone targets for how long it takes to 
review a design certification, combined operating license, and 
early site permit. Those are three of the key processes for a 
new construction plant.
    I am aware, and the Chairman has mentioned that he has 
asked us, the staff, to take a hard look at what lessons 
learned and efficiencies, as Commissioner Svinicki mentioned, 
might be achieved early on at appropriate steps.
    And so I just would commit to you I will engage with my 
other Commissioner colleagues to have that discussion and get 
back to you.
    Senator Inhofe. OK.
    Would you agree with that, Commissioner Magwood?
    Mr. Magwood. Absolutely. I have already spent some time 
thinking about this, and I expect to spend a lot more time 
thinking about it as we go forward.
    I would add one cautionary note to this, which is it is so 
important to get these first plants.
    Senator Inhofe. Which was also the case in the renewals.
    Mr. Magwood. Absolutely. Doing it right is really the most 
important thing that I am focused on. So I am watching those 
processes very closely. But the question you asked is an 
absolutely essential question we should face and is one I am 
giving a lot of thought to.
    Senator Inhofe. All right. That is good.
    Well, I think it is a good time to do that in that we have 
almost a new Commission here, so you are not encumbered by 
things in the past that made it more difficult.
    Yes, sir.
    Mr. Apostolakis. I fully agree with my colleagues that this 
is a very good idea.
    Senator Inhofe. OK. Good.
    Ms. Svinicki. Senator Inhofe, after you raised this issue I 
believe at the nomination hearing of my colleagues, I found it 
thought provoking, and I went back and looked more closely at 
our posted schedules for the new reactor reviews. I noticed 
just what you had remarked upon, which is that our schedules do 
not include the steps at the very end that have Commission 
action. There is no predicted time line.
    I was pondering why that was, and the best I can think of 
is that there was a rush of applications that came in in 2007 
and 2008. I think that the focus at that time was on the 
environmental review and the safety review and publishing the 
schedules for those.
    But speaking only for myself, I am hard pressed now to say 
that if we are in 2010 and some of these documents now will be 
issued in 2011 and 2012, it may be that the time is right--and 
you mentioned that the Commission has had a significant change 
in membership--that as a Commission we should get together and 
look at what kind of schedule predictions that we can put out 
there. Of course, we would keep in mind that they are dependent 
on all of the steps prior to that being fulfilled on time.
    The cautionary note you mention is that we need to be 
careful about making sure that people understand that the 
estimate is predicated on a lot of other things. But I, 
candidly in reading your remarks, I have to say that I found a 
lot of logic in them. If in 2008 we weren't ready, maybe we 
need to be ready now to send some public signal about 
schedules.
    Senator Inhofe. I appreciate that very much. Thank you.
    Mr. Jaczko. Senator, I would love to share my understanding 
on the process of how the Commission approves licenses for new 
reactors. The license approval process is actually a staff 
action. So once the staff issues its final documentation, there 
actually is a schedule for completion of activities. If there 
is a contested hearing in the process, so if there are parties 
who have engaged through the hearing process and gotten 
submittal of a contention, there are milestones in our rules 
and regulations that establish when the board is required to 
complete its work.
    So those are triggered, for instance, to completion of the 
staff review of the final evaluation report, which is the 
safety review the staff does. So once that document is 
complete, then those board milestones pick up again and have 
targets for completion of the board's work.
    Once the board issues its final decision, whether or not 
there is a contested proceeding, that is the final action for 
licensing, pending any appeals to the Commission itself. When 
the Commission revised our regulations in Part 52, which is the 
regulation that covers the procedure for the reactor licensing, 
the Commission actually at that time removed the provision in 
the procedures which would require those decisions to actually 
come in front of the Commission.
    So in the past, there was a required step where the 
Commission had to approve affirmatively the staff licensing 
action. That was actually removed. So the point that the board 
issues the decision, again pending appeals, that decision is 
final. Those decisions would go on while the license was 
issued.
    Now, with or without no contested hearing, then the 
Commission work that actually has to be done is what is called 
the mandatory hearing, which is an activity that the Commission 
agreed that the Commission would take on itself. That is 
something that arguably we don't currently have a schedule to 
complete. I have proposed a meeting to the Commissioners for 
later in July to begin working out how we would establish the 
schedule and how we would actually work through completing that 
mandatory hearing.
    Senator Inhofe. OK. I would just like to have all five of 
you get together and address this and maybe come back. I am 
specifically talking about now the final Commission activity.
    Thank you, Mr. Chairman.
    Senator Carper. You are quite welcome.
    Senator Sanders, you are recognized. Please proceed.
    Senator Sanders. Thank you very much.
    Senator Carper. And we will have a second round, so we will 
have another chance to ask more questions.
    Senator Sanders. Thank you very much, Mr. Chairman.
    I would like to put into the record an Associated Press 
article, February 1, 2010, headline: ``A quarter of U.S. 
nuclear plants leaking: 27 of 104 plants leak radioactive 
tritium, a carcinogen, raising concerns about Nation's aging 
plants.''
    First paragraph: ``Radioactive tritium, a carcinogen 
discovered in potentially dangerous levels in groundwater at 
the Vermont Yankee Nuclear Plant now taints at least 27 of the 
Nation's 104 nuclear reactors, raising concern about how it is 
escaping from the aging nuclear plants.''
    Senator Carper. Without objection, it will be made part of 
the record.
    Senator Sanders. Yes, thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sanders. Mr. Chairman, has the NRC leveled any 
fines against Vermont Yankee or any of these other nuclear 
power plants for these tritium leaks?
    Mr. Jaczko. I am not aware that the NRC has leveled fines.
    Senator Sanders. Any punitive action?
    Mr. Jaczko. Yes. We have taken review of these actions from 
an enforcement perspective or as part of our reactor oversight 
process. So the way we establish our oversight is that when 
there are violations or there are issues that are not 
consistent with the license, we have a system of increased 
inspections that we do to identify and address the issue.
    Senator Sanders. My question was 27 plants are leaking 
tritium. Have any of these plants been fined? A nickel, a 
dollar, $100?
    Mr. Jaczko. I am not aware of any fines that we have 
issued.
    Senator Sanders. Thank you.
    Mr. Jaczko. Senator, if I could say that when we changed 
our oversight process, we took away that aspect of our 
enforcement program. So for instance in the case of Braidwood, 
which was one of the first places where we had a really 
significant issue with tritium, we did take an action and give 
them a higher level of inspection.
    Senator Sanders. In all due respect, a higher level of 
inspection. People are leaking a possible cancer causing 
product, and your response was to do a higher level of 
inspection. I think most Americans would not be satisfied with 
that.
    Let me go to my second question, which is a broad one. And 
Mr. Chairman, maybe you could help me here because I don't want 
to mistake what I think are the facts.
    My understanding, and please correct me if I am wrong on 
this, anybody on the panel or fellow Senators, my understanding 
is that the U.S. Government spent some $7.7 billion researching 
and developing Yucca Mountain. Mr. Chairman, does that sound 
like a roughly correct fact? Seven point seven billion dollars.
    I was in the House when that whole debate took place. And 
when you spend over $7 billion of taxpayers' money in order to 
develop a national repository, the thought is that it is 
absolutely essential that you have that repository to deal with 
existing radioactive waste and any future waste that may be 
developed.
    As far as I understand, somebody can correct me if I am 
wrong, Yucca Mountain is now dead. The people of Nevada don't 
want it. Their Senators don't want it. It is dead. It is gone.
    To the best of my knowledge, I have not heard any other 
State come forward and say we want existing radioactive waste, 
not to mention any new waste that might be developed in future 
plants.
    So my question is, if we spent $7 billion developing Yucca 
Mountain as a national repository for nuclear waste, if that is 
not going anywhere, how with a straight face can anybody be 
talking about building new nuclear power plants where we don't 
have a national repository to take care of the waste generated 
by the plants currently in existence?
    Mr. Chairman.
    Senator Carper. In responding, let me just say the 
question, whether it is $7 billion or some other number, I just 
would point out I don't believe we are talking about the 
taxpayers' money. I think the money is ratepayers' money. Many 
of them are taxpayers, but there is a distinction there.
    Senator Sanders. OK. Thank you.
    Chairman Jaczko.
    Mr. Jaczko. The Commission looks at this issue in two ways. 
One, we look at it from the standpoint of the safety of spent 
fuel, and can spent fuel be maintained safely and securely. 
Right now, the Commission believes that spent fuel can be 
maintained safely and securely for at least 100 years.
    Senator Sanders. Then why did we spend $7 billion looking 
at Yucca?
    Mr. Jaczko. Certainly from the NRC's perspective, I can't 
get into specifics of Yucca Mountain and the status of Yucca 
Mountain.
    Senator Sanders. I don't want you do. All that I am saying, 
and correct me if I am wrong, obviously there was a belief that 
we needed a national repository at Yucca or anyplace else. That 
isn't going to happen.
    Mr. Jaczko. I think there is a strong sense, and the 
Commission has gone on record that the storage of spent fuel 
can ultimately be done in a geologic repository.
    Senator Sanders. So we wasted $7 billion by looking at 
Yucca under the thought that we needed a national repository. 
Is that what you are suggesting?
    Mr. Jaczko. What I am suggesting is that the NRC's focus is 
on the safety and security of this fuel. And we think 
fundamentally that can be done for at least 100 years, and 
right now the agency is looking at what would happen beyond 
that 100 years until we have an ultimate decision about where 
this fuel would go, whether it would go through a reprocessing 
cycle; whether it would be ultimately put in a geologic 
depository somewhere.
    But right now, we believe that the risks and the safety and 
security of the spent fuel are very, very low, and that it is 
something that can be maintained safely. It has been maintained 
safely at reactor sites both in wet storage and in dry storage 
for decades. So we believe that there is a strong program in 
place right now to look at the safety of it.
    The other piece of it is the environmental impacts, and 
that is something that we do through a regulation that we have 
called waste confidence. And that is something that the 
Commission is looking at revising right now, given just the 
current state.
    Senator Sanders. Mr. Chairman, thank you.
    Does anybody else want to comment? It is an interesting 
thought. I was in the House. I guess in the Senate that debate 
took place and $7 billion spent on what essentially the 
Chairman is saying didn't happen, not a problem.
    Senator Voinovich. The bottom line is that money was 
collected from ratepayers and it is about $29 billion; $7.5 
billion or whatever has been Yucca Mountain. The rest of it has 
been used to balance the budget, so there is no money in the 
trust fund.
    Senator Sanders. But be that as it may.
    Senator Voinovich. Yes, but the fact is that every year, 
the Department of Energy is sued by the utilities, and they 
lose the lawsuits because they promised that they were going to 
find someplace to put the waste instead of putting it in dry 
storage.
    Senator Sanders. That is fair enough. My only point, 
Senator Voinovich, is that we have spent an enormous amount of 
money under the premise that we needed a national repository. 
We don't have one. To the best of my knowledge, we are not 
looking at one. And now people apparently are comfortable about 
building 100 new nuclear power plants. It doesn't make a lot of 
sense to me, I have to say frankly.
    Do other people want to comment on that on the panel? Am I 
missing something here?
    Thank you very much, Mr. Chairman.
    Senator Carper. You bet.
    Let's see, Senator Voinovich, I think you are up.
    Senator Voinovich. First of all, many of us have 
legislation we have introduced to create a vehicle where that 
money would go and not go in the general fund that would deal 
with used fuel. And Secretary Chu has a Blue Ribbon Committee 
right now that he has set up that supposedly will report back 
in 18 months about what the alternatives are in terms of 
dealing with that situation. He is not for recycling it right 
now because he thinks it is too expensive, as they do in 
France, and he is worried about the problem of plutonium. So 
they are aware of the problem, and they are aware of getting 
lawsuits.
    Second of all, I think it is really important, and I think 
you should send a news release out. I am not even asking for a 
comment. I would like to know the harm done by tritium versus 
living in Denver or taking a flight. I would like to know what 
it is in relationship to and in terms of human health and 
problems. I am not going to get into that now.
    Senator Sanders raised a question. I have other questions 
to ask.
    Mr. Jaczko. I would just briefly say, Senator, we have a 
fact sheet that talks about the impacts of tritium, and we can 
send you a copy of that.
    Senator Voinovich. OK. I would appreciate it.
    The other thing is that you had Dick Meserve then you had 
Nils Diaz, then you have Chairman Klein and now you. And your 
organization has gone through systemic change and 
transformation. It takes a long time for it to happen. In any 
quality organization, you are going to have continuous 
improvement, and that is what we expect that this board is 
going to provide us. I would love someday to have somebody look 
back and see the improvements made.
    But I would like to point out, if you are talking about 
safety, that we went through some really tough hearings back in 
2002 because of what happened at Davis-Besse. As a result, Mr. 
Chairman, I would like for you to comment about the fines and 
the things that happened because of the fact that the 
Commission wasn't doing their job, and the company wasn't doing 
their job, and what happened to them.
    Last but not least, I would like to point out that because 
of the lessons learned there, that is the real issue, lessons 
learned, recently there was discovery of some problems that 
they had at Davis-Besse. They found them out because of the new 
protocol that you folks have established.
    I want people to understand that things do happen to people 
when they don't do what they are supposed to do, and how you 
try to correct the situation. And because you have, we are in a 
lot better position today than we were, say, back in 2002.
    Can you comment on that?
    Mr. Jaczko. Senator, you are correct. We have a new 
oversight program in place. The focus of that oversight is on 
getting the licensees to improve and correct their behavior. So 
we have moved away, other than in very specific situations, 
from using monetary fines as our enforcement mechanism. We rely 
on orders.
    Senator Voinovich. Yes, but there were criminal charges 
filed against people. I think the company was fined millions of 
dollars, wasn't it?
    Mr. Jaczko. That is correct. Like in Davis-Besse, when 
there is a willful violation of our regulations, we take very 
severe enforcement action that involves civil penalties and 
fines. When we are talking about things like inadvertent leaks, 
if there is not a willful activity on the part of an employee, 
we deal with that through our oversight process.
    The way that oversight process works is it focuses on 
improving licensee behavior. So we have inspections programs 
that we use. We require the licensees to have a corrective 
action program to ensure that they take corrective action and 
that they take lessons learned. And we monitor all of these 
performance indicators that tell us how the plant is 
performing.
    If we see negative information from those indicators, then 
we take more and more aggressive action in our oversight, to 
the point where we would shut them down if we needed to.
    Senator Voinovich. OK. The other thing is that a lot of 
people are not aware that the industry itself is doing a lot 
more policing. I don't know what the organization is called, 
but I have talked to some of the people that run these places 
and say they are really tough on them. In other words, the 
industry itself understands that they have to put peer pressure 
on other members because they realize that if something goes 
wrong, it is not only going to impact on that individual, but 
it is going to also impact on the entire industry.
    Mr. Jaczko. The organization is INPO, the Institute for 
Nuclear Power Operations that you are referring to. They 
perform an industry self-regulatory function, and we do 
communicate with them to compare how they see performance of 
licensees as well as how we do.
    I think one very telling statistic, I think as Commissioner 
Apostolakis mentioned, are efforts to put in place a new 
process for the fuel cycle oversight program. The reactor 
oversight program that we implemented about 10 years ago has 
really helped us focus on the real safety significant issues. 
When that program first started, we began a process of having 
annual meetings where we would have power reactors come in who 
were not performing well, to talk about their performance.
    I think because of this enhanced and improved oversight 
process, this year will be the first year that we don't have a 
plant that has significant enough safety problems to warrant 
coming to that meeting. So I think it is really a reflection on 
the fact that we are focusing on the issues that matter from a 
safety and a security standpoint.
    The issues like tritium I think are significant issues from 
a public confidence standpoint, but right now we don't see that 
they are having an impact on the safe operations of the 
facilities, and we don't see them having immediate impact on 
public health and safety.
    They are very significant issues, and I think the agency 
takes them very seriously, and we have done a tremendous amount 
of outreach to talk about these things and to talk about the 
issues because they are of concern to the communities. I think 
it is very important for us to make sure that we are able to 
communicate and address those issues. So that is the approach 
we have taken.
    Senator Voinovich. The other thing is in terms of what I 
talked about in my statement regarding the SMRs. I think it is 
significant that the Secretary of the Department of Energy, Dr. 
Chu, had an article in the Wall Street Journal entitled 
America's New Nuclear Option. He talked about the fact that 
their small size makes them suitable for locations that cannot 
accommodate large scale plants. The modular construction 
process would make them more affordable. Their modular nature 
allows utilities to add units as demand changes or use them for 
onsite replacement of aging fossil fuel plants. And last but 
not least, some of the designs for SMRs use little or no water 
for cooling, which would reduce their environmental impact.
    And I know you are starting to look at this issue of SMRs, 
but could you comment on where you think you are with that and 
when you would be prepared to handle any applications that 
would come in to deal with them?
    Mr. Jaczko. I think I would break that group of small 
modular reactors into three categories. The first category, I 
would say, are what we call the integral light water reactors. 
Those are small modular reactors that use the more traditional 
technologies to what we are using today in the nuclear reactor 
fleet.
    We are preparing to review two design certifications 
sometime in mid-2012 to 2013 for those smaller light water 
reactors.
    Senator Voinovich. In other words, it is going to take that 
long for all that process to go through?
    Mr. Jaczko. That is when we are anticipating that the 
applicants would be ready to submit an application. So we are 
basing that off of their schedules and when they anticipate 
submitting those. And that is working in conjunction with the 
Department of Energy program to help provide some financial 
assistance to those particular vendors. They intend to fund two 
different vendors for design certification.
    The second piece is the gas reactor technology that I think 
Commissioner Apostolakis may have referred to, the so-called 
next generation nuclear plant. And we are on process to receive 
a design review for that in 2013. So that would be on a 
separate track as well, because it is a slightly different 
technology.
    The third piece of that--and probably the least certain 
right now and the one that is most far into the future--would 
be small modular reactors that rely on non-light water or gas 
reactor technology, things like sodium cooled reactors and 
other more exotic types of reactors. That program is probably 
the least well developed at this point, and I wouldn't 
anticipate the agency being really ready to deal with that in 
the near term.
    But we also don't see any real immediate commercial 
interest in those particular applications, so I think focusing 
our efforts on the light water reactors and the gas reactors, 
because that is a statutory program, is really the best place 
to put our focus. But I think we are prepared to deal with at 
least a portion of the applications that would be coming 
forward.
    Senator Voinovich. The last thing, I am out of time, but 
could somebody give me a survey of what is happening 
internationally in this regard? You have it there. If you don't 
have it, I will try to get it from the Department of Energy.
    Mr. Jaczko. We can certainly look to see what we have. If 
we don't have anything, we will let you know and see if we can 
point you to a place that can provide that for you.
    Senator Voinovich. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Voinovich.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Jaczko, has there ever been a fatality as a result of 
an accident at a commercial nuclear reactor in the United 
States?
    Mr. Jaczko. There has not as a result of plant operation, 
not at a commercial power plant. There have been other nuclear 
facilities where there have been fatalities, but not in a 
nuclear power plant.
    Senator Alexander. Not as a result of the reactor.
    Mr. Jaczko. Not as a result of a reactor accident.
    Senator Alexander. Mr. Ostendorff, has there been a 
fatality as the result of the operation of the Navy nuclear 
reactors in the history of the Navy program?
    Mr. Ostendorff. No, Senator.
    Senator Alexander. Mr. Jaczko, is it approximately correct 
that the amount of used nuclear fuel that we have stored onsite 
at the 104 commercial reactors, if we put it all together would 
it about cover a football field and be 10 or 20 feet deep? Is 
that about the volume we are talking about?
    Mr. Jaczko. I have heard estimates to that effect. It is 
several tens of thousands of metric tons.
    Senator Alexander. But to give a picture of that, would it 
be about the size of a football field to a depth of 10 or 20 
feet?
    Mr. Jaczko. I believe that is approximate.
    Senator Alexander. The volume isn't very high. And you said 
it could be stored safely onsite for 100 years.
    Mr. Jaczko. Currently, we believe at least to 100 years it 
can be stored safely onsite, and with very little risk to the 
public or to the environment.
    Senator Alexander. Mr. Apostolakis, what is tritium? What 
is it? We have been talking about it. What is this tritium we 
are talking about?
    Mr. Apostolakis. It is an isotope of hydrogen. Is that the 
answer you want?
    Senator Alexander. Well, we are talking about it as a scary 
substance. Is it harmful?
    Mr. Apostolakis. Well, it could be.
    Senator Alexander. What would it take? Let me put it this 
way. The Senator said that there has been release of tritium in 
27 plants. Has it been released in any amount that would be 
harmful to humans or create environmental damage?
    Mr. Apostolakis. As far as I know, the amount released 
would not be harmful, but I really don't know the details.
    Senator Alexander. Mr. Jaczko, do you know?
    Mr. Jaczko. At this point, we have not seen any releases 
off the reactor sites that are above Environmental Protection 
Agency limits for what are safe levels of tritium, which right 
now I think it is 20,000 picocuries per liter.
    Senator Alexander. So the information we have heard about 
so far, it doesn't harm anybody.
    Mr. Jaczko. We have no information yet that there have been 
any consequences to public health and safety for this. There 
is, I think it is fair to say, I would look at it from perhaps 
a good neighbor policy in a way that this is not the way the 
NRC would like to see these reactors operate.
    Senator Alexander. No, no. No one is suggesting that.
    Mr. Jaczko. It is certainly not the best behavior to have 
these kinds of leaks and to have these kinds of occurrences 
happen.
    Senator Alexander. But if you have $100 and you lose $1, 
that is a problem. You don't want it to happen, but it is not 
necessarily harmful to you. It is not necessarily dangerous.
    Let me, if I may, go on. The Senator from Vermont and I 
have some agreement as well as some differences of opinion on 
energy. One agreement we have is on energy efficiency. We 
absolutely agree on that.
    A second agreement we have is our hope for the success of 
solar power, making it cheaper because it operates at peak 
time. But just for the record, Secretary Chu, the Nobel Prize-
winning physicist who is President Obama's Energy Secretary, 
says it is still too expensive by a factor of four compared to 
other forms of energy. That is his judgment, and we hope that 
it will get better because we make a lot of the polysilicon in 
Tennessee, so that would mean more jobs for Tennessee if that 
happens.
    As far as wind goes, I would have to observe that if we 
closed the Yankee Nuclear plant in Vermont, it would take about 
1,800 50-story wind turbines all over the scenic hillsides of 
Vermont. It would cover every scenic ridge up there, I think, 
to replace that. So there are some costs that come from other 
things.
    I would like to go back to this. What could the oil 
industry learn from the Nuclear Regulatory Commission? Oil 
drilling is regulated by about 14 agencies, not a single entity 
like nuclear power.
    And I wonder, Mr. Ostendorff, you, from your Navy 
experience, and Mr. Jaczko, you as Chairman, are there any 
lessons from the Navy's safe operation of nuclear reactors and 
America's safe operation of nuclear commercial reactors that 
other forms of energy might learn from those operations?
    Mr. Ostendorff. Senator, I would suggest the concept of 
accountability, where accountability is clear and understood by 
all parties involved. Our responsibilities here at the Nuclear 
Regulatory Commission involve the safe operation of the 
country's reactor plants, but we hold the licensees 
responsible. And so it is clear those licensees are accountable 
to the Government via this body of individuals and staff that 
work with us.
    Senator Alexander. My impression, not to interrupt, but if 
you are a commander of a Navy vessel, and there is a single 
problem with a nuclear reactor, that is not somebody else's 
fault. Correct? It is your fault.
    Mr. Ostendorff. That is correct. Just as an anecdote, when 
I went through my commanding officer training in 1992, there 
were 11 people in the class, and 4 of those 11 very fine 
individuals at some time or another had some time of 
disciplinary action taken against them because of something 
that happened during their time as commanding officer of a 
submarine. And so that accountability practice and series of 
principles are very much real in that environment.
    Senator Alexander. Mr. Jaczko, just quickly, as you look at 
what is happening in the Gulf, is there anything you would 
think that regulating the drilling of oil could learn from the 
experience we have had with nuclear commercial reactors?
    Mr. Jaczko. I think there are several things. One I think 
is this idea of having an oversight program that is focused on 
the safety significant issues, and really making sure that you 
don't get distracted with minor violations, but really focus on 
the things that matter from a safety perspective.
    The other thing that I think is very important piece is the 
idea of safety culture. That is really a developing aspect of 
the nuclear power industry, and it is really I think an area in 
which are continuing to lead in the ideas of safety regulation.
    I would mention that there was a very significant incident 
at an oil refinery in the southern United States. I don't 
remember exactly which State now, but I believe it was Texas. A 
study was led about that oil refinery accident. It was a 
significant accident. People died, I believe. One of the things 
that came out of that was a significant recognition that this 
concept of safety culture was extremely important and was 
lacking in these kinds of industries.
    So it is an area where we are focusing in the nuclear side, 
and I think it is an area where other safety sensitive 
industries could really be enhanced by a focus on that area.
    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Apostolakis. Could I say something, Senator?
    Senator Alexander. Yes.
    Mr. Apostolakis. I think the most important principle that 
we have implemented in the nuclear business that I think other 
industries can benefit from is the concept of defense in depth, 
which says basically and asks us all the time to ask the 
question: What if we are wrong? We have these multiple defenses 
against the release of radioactivity and every single time we 
are saying, well, gee, everything is good, but what if we are 
wrong? Maybe we should do something about it.
    A good example is the emergency evacuation plans. We know 
that the probability of a catastrophic accident is very, very 
low, and yet we demand there be evacuation plans.
    Judging from what I read in the media, I think the oil 
industry and other industries of this kind could benefit from 
that philosophy of defense in depth. What if something happens? 
How are we going to respond? And be ready for it.
    Senator Alexander. Thank you.
    Mr. Chairman, I wonder if I might just ask this question 
which might get a yes or a no.
    Senator Carper. As long as it gets a yes or a no.
    Senator Alexander. To the Chairman, if the goal of the 
Department of Energy program for small reactors is to have two 
design certifications completed by 2015 and licensed by 2018, 
is the Department dedicating enough money to permit you to do 
your job with everything else that you have to do?
    Mr. Jaczko. In my discussions with the Department of 
Energy, I think they are providing what I would say they 
believe is a right level of funding. I think the most important 
indicator will be in the technical quality, in the technical 
completeness of the application. For us to review it in a 
relatively straightforward manner, it needs to come in at a 
very high quality with a very high degree of completeness.
    So as I became aware of the Department of Energy program, 
it was clear that they were putting resources to support those 
vendors in a way that would work toward getting that high 
quality application.
    I can't speak for sure to say whether it is enough or not. 
I would probably defer that question to the Department of 
Energy.
    Senator Alexander. That didn't sound like a yes.
    [Laughter.]
    Senator Alexander. But thank you very much.
    Mr. Jaczko. I would prefer not to speak for the Secretary 
of Energy on those matters.
    Senator Carper. All right. Fair enough.
    We will have a second around. We used about 8 minutes on 
our first round, and then I will ask that we use about no more 
than 4 minutes on our second round. We need to get a second 
panel up here, so they will have their moment in the sun.
    For currently operating plants, what are you doing to look 
at NRC performance indicators for plant oversight and to revise 
them over time? Could you also describe for us how the NRC 
cooperates with or how you share data with the Institute for 
Nuclear Power Operations? We understand the NRC and the 
Institute use different standards to measure safety 
performance.
    Mr. Jaczko. Every year, the agency does a self-assessment 
of our reactor oversight program. And every year, that includes 
a look at those indicators that we have to measure licensee 
performance. In the last year specifically, the staff went out 
and met with members of the industry, with INPO, the Institute 
of Nuclear Power Operations, to look at performance indicators 
that they use that we currently don't use.
    So they are continuing that dialogue to see if there are 
other indicators that we could perhaps use in place of the ones 
that we are currently using to ensure that we are continuing to 
find the right kind of information and measuring the right 
performance or actually measuring the performance.
    With regard to the information with the Institute of 
Nuclear Power Operations, we have a memorandum of agreement to 
share information with them about their assessments of plant 
performance compared to our assessment. Our staff does meet 
with them at least on an annual basis to review those kinds of 
assessments, and we have other more informal dialogues 
certainly throughout the year.
    As a measure, in many ways a second look at how we view 
performance, what I often hear from the staff is that they find 
the plants that are the most interesting from the perspective 
of our attention are those plants in which we have a slightly 
different view of the licensee performance than INPO does. 
Often, we may learn some things from them about performance 
that we weren't necessarily looking at as part of our process 
because they do have a slightly different review, given their 
focus is also a little bit more on management than we focus on.
    Senator Carper. All right.
    I welcome comments from anyone else on the panel.
    Dr. Apostolakis, did you want to say something?
    Mr. Apostolakis. I think the oversight process is one of 
the most successful processes that has been proposed by the 
Commission. It is being improved all the time, but I got some 
crazy ideas as we were discussing earlier the tritium issue 
that maybe we ought to include something, and again, this is 
completely personal now, as I have not even talked to my 
colleagues about it, to add to the process something that deals 
with events that undermine public confidence, that are not 
safety significant. They are not threatening the health of 
anybody, but it might be a good idea to at least think about it 
because the oversight process I think works very well now to 
protect the public health and safety.
    Senator Carper. All right. Thank you.
    Senator Alexander, do you have any last questions you want 
to ask?
    Senator Alexander. I have a couple. I don't mind if Senator 
Sanders wants to go ahead. I can wait on him if he likes.
    Senator Carper. All right.
    Senator Sanders, go ahead.
    Senator Sanders. I will be brief. Thank you, Senator 
Alexander.
    Senator Alexander and I do agree on a number of issues, 
solar and energy efficiency. And I don't want to beat a dead 
horse. I am not a biologist here, but picking up on Senator 
Alexander's point and implication that tritium is not 
dangerous. The truth is, let me quote from an article, the AP 
article: ``Many radiological health scientists agree with the 
EPA that tritium, like other radioactive isotopes, can cause 
cancer.''
    And the article further says there is disagreement about 
the risk. ``Somebody would have to be drinking a lot of water, 
and it would have to be really concentrated in there for it to 
do any harm at all,'' said Jacqueline Williams, a radiation 
biologist at the University of Rochester. But in 2005 the 
National Academy of Sciences concluded after an exhaustive 
study that even the tiniest amount of ionizing radiation 
increases the risk of cancer.
    So we don't want to be fear mongers here, but I think this 
stuff is probably not something you would sprinkle on your 
dinner tonight. And I think, as Mr. Apostolakis indicated, we 
have to err in a sense in terms of public confidence on the 
side of caution.
    I would just conclude, first of all, by expressing my 
respect to all of you. I think you are serious people. You 
understand the enormity of the responsibility that you have. 
But in light of--I guess the only point that I want to 
conclude, is that in light of what we are seeing now in 
Louisiana, I have the feeling that at some time, some place, 
Mr. Chairman, a group of people like you stood before some 
House or Senate Committee and when asked question about the 
potential danger of offshore drilling made it clear that there 
was no danger whatsoever; that the latest technology is there, 
and rest assured, there is no problem. I suspect that hearing 
took place at some time, and right now we are dealing with this 
horrendous catastrophe in the Gulf Coast.
    So you are dealing with a potentially very dangerous 
technology. People are concerned about it. Some of us believe 
that the risk is just not worth it. There are other ways to 
solve the energy needs in this country, energy efficiency being 
one; sustainable energy being the other.
    But having said that, I know that you are serious people, 
that you take your job of protecting the American people with 
the utmost sincerity, so I thank you for what you are doing.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Sanders.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    I wonder if I could ask the Chairman, I really am grateful 
for this hearing. How many of these do you think we should 
have? I mean, how regularly do you think we should invite the 
Commissioners here for a couple of hours and do our oversight 
job? Sometimes I think oversight in Congress is the authority 
and constitutional responsibility we have that we exercise the 
least. What are your plans?
    Senator Carper. It is a good question and one that actually 
we should discuss further. For our friends, Senator Alexander 
described hearings. He says they really are misnamed. They 
should be called talkings, because at most of the hearings, the 
people on this side of the dais do most of the talking.
    This has not been that way in this case. But he has 
encouraged me, as has Senator Voinovich, to have a different 
kind of approach, not an official hearing, but the idea of 
doing something, either a hearing or a less formal process even 
more frequently than an annual basis.
    Senator Alexander. I would like to suggest that, and to tie 
that to the suggestion from Mr. Apostolakis and Senator 
Sanders' point about tritium. I think it is important that we 
have a regular and an open discussion about such things as 
tritium so that we, Senators, understand it. We shouldn't have 
a hearing about it until somebody explains to us what it is and 
compares it to some other things. So we should know what we are 
talking about. Too often, we get into these things and we act 
like we know what it is, but none of us, if pressed, could 
define it.
    And the suggestion that maybe a function of the NRC should 
be to take these exotic concepts and help us understand the 
risks and help the public understand that. The fact was, as I 
mentioned at the beginning of the hearing, Three Mile Island 
was a partial meltdown of a reactor where the containment 
system worked, and nobody was hurt. And so far as I know, there 
was no environmental damage. Yet that was the catalyst, along 
with other factors, for causing several States to pass laws 
saying you can't build a nuclear plant here, and causing the 
country for 30 years to put nuclear plants in mothballs, which 
is the energy equivalent of going to war in sailboats.
    So I think the idea of having more regular oversight by 
this Subcommittee would be helpful, and I think the Nuclear 
Regulatory Commission, and I have great confidence in its 
membership. I applaud the President for the quality of his 
appointments here and for the Commission that is looking at 
used nuclear fuel.
    Such items as how much used nuclear fuel do we have, if it 
all fits in one football field that is 10 feet deep, I think it 
is important for the country to know that. If it is safe for 
100 years to be stored at the 100 sites that we now have, I 
think it is important for the country to know that. If releases 
of tritium at 27 plants are dangerous, we should know that. If 
they are not in dangerous amounts, we should know that.
    So I think a little more attention to that would be 
helpful.
    Mr. Jaczko. Senator, if I could just comment specifically 
on the tritium, I think that is a very good suggestion. One of 
the things that we have done with this issue is a more 
aggressive outreach program. We had a meeting in Vermont just 
to talk specifically about the tritium issue, to hear from your 
constituents, Senator, but to hear from the people in the 
community about what their concerns are.
    We followed that up with a meeting in Washington to do 
exactly what you said, which is to talk about tritium, to talk 
about what it is so that people understand, and we can do a 
better job of helping them understand what it is and how we 
address it and deal with it.
    Senator Alexander. Yes, but even to be more specific, if I 
may, Mr. Jaczko, I mean soft drinks can be dangerous if you 
swim in it. I mean, if it is not being released in harmful 
amounts and if that is the opinion of scientists at the Nuclear 
Regulatory Commission, someone should say that. If it is, we 
need to know that. Either way.
    Mr. Ostendorff. Senator, may I comment on that please?
    Just to follow up on the Chairman's comments, I recognize 
and Senator Sanders has raised the public confidence issue, 
which is a critical issue. And I think we are completely in 
agreement, Senator, that the public confidence piece is 
extraordinarily important and that right now in Vermont many 
people do not have that confidence. We appreciate that reality.
    The education piece, and I am going to just maybe give you 
a couple of numbers to put this in perspective based on my 
understanding, and I will ask my colleagues to correct me if I 
am wrong, the average American citizen receives background 
radiation, radiation from dental x-rays, CAT scans, et cetera, 
that amount to about 200 to 300 millirem per year. The Federal 
occupational dose limit is 5,000 millirem per year or 5 rem.
    The tritium piece that was referred to earlier, the limit 
in drinking water is 20,000 picocuries per liter. That is the 
drinking water limit. The picocurie, that is one times 10 to 
the minus 12 is the mathematical piece. If I were to drink 
water every day over the course of 1 year of 20,000 picocuries 
per liter of concentration, then I would receive 4 millirem per 
year radiation exposure. Since 4 millirem per year exposure for 
drinking water at the limit that we are talking about, in 
context of an overall background of about 200 to 300 millirem 
per year. So about one-fiftieth to one-sixtieth of your annual 
average radiation dose would result from drinking that level of 
water.
    So far to date, none of the drinking water samples taken at 
any of the plants have had any contamination in excess of the 
20,000 picocuries per liter.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Carper. With that, I am going to have a drink.
    [Laughter.]
    Senator Carper. And I will conclude. We appreciate very 
much each of you being here. We appreciate your preparation. As 
you leave, I want you to take with you this thought. As 
Commissioners, you lead the agency in charge of nuclear safety 
that is most admired throughout the world, of all the nations, 
as an agency. The people that you lead have helped us preside 
over the improvement in operating efficiency of nuclear power 
plants in this country, from maybe less than 70 percent to 
today as high as 90 percent or greater.
    And the folks who work at the Nuclear Regulatory Commission 
have been recognized, and the agency has been recognized year 
after year as the best place to work in Federal Government. 
Those are very high standards to maintain, but we are going to 
ask you to do more than just to maintain because we know if it 
isn't perfect, make it better. We know it is not perfect. 
Nothing that I do is perfect. And as good as the NRC is doing, 
we know that it is not perfect either. And thus we would ask 
you to continue to strive for perfection.
    And the other thing I would say, as I am sure Captain 
Ostendorff and I recall from our time in the Navy, there are 
times when whether it is a submarine or a fleet of submarines 
or aircraft or ships, when you find out that a procedure that 
is being followed on a submarine or ship or aircraft is unsafe 
or unwise. And the idea is not just to internally digest that, 
but frankly to share that with others so that other ships, 
submarines or aircraft carriers, if you are doing something 
that is wrong or foolish or stupid, the others can correct 
that. And when somebody steps forward and really makes the 
admission that, hey, we are doing this, and this isn't good, or 
this particular piece of equipment there is something wrong 
here, it needs to be shared.
    So while on the one hand we want to respond to 
inappropriate behaviors. On the other hand, we want to do so in 
a way that does not convince the agency or convince the 
industry to hide things, to keep secrets that actually will 
lead to problems further down the road.
    So you have a proud legacy to uphold, but you still have 
your hands full. A lot is riding on this, and we are counting 
on you to continue to do a great job.
    Our colleagues have about 2 weeks that they can ask 
additional questions. If you receive any additional questions, 
we would just ask that you respond to them promptly.
    Thank you so much.
    And now we will welcome the second panel.
    Gentlemen, I am going to ask you to go ahead and take your 
seats with the right name tag in front of you. Good to see you 
all. Thank you for our patience. I am going to take a moment to 
just briefly introduce our witnesses.
    On this panel we have a couple of you who are no strangers 
here. You have been before this Subcommittee any number of 
times and we welcome you back.
    First, we have Hon. Richard Meserve, President of Carnegie 
Institute for Science, and with us today on behalf of the 
Bipartisan Policy Center, which was established by a number of 
our former colleagues and does good work.
    Dr. Meserve is a former NRC Chairman. As many of you know, 
he currently serves on the Blue Ribbon Commission on America's 
Nuclear Future established by Department of Energy Secretary 
Chu, as referenced earlier today. He also currently serves as 
Chairman of the International Nuclear Safety Group, which is 
chartered by the International Atomic Energy Agency, and is a 
member of the National Commission on Energy Policy. You are 
pretty busy. It is good to see you.
    Next we have Mr. George Vanderheyden, President and Chief 
Executive Officer of UniStar Nuclear Energy, a Constellation 
Energy and EDF Company. Mr. Vanderheyden leads the company's 
efforts to develop and deploy the first new generation of 
nuclear energy facility in North America. Mr. Vanderheyden also 
serves as Senior Vice President of Constellation Energy's 
Nuclear Group, overseeing Constellation's new nuclear 
interests, president of UniStar, LLC, a project to market 
evolutionary power reactor technology adapted specifically to 
the United States.
    Next, Hon. Peter Bradford. Again, we appreciate you being 
with us previously. But Mr. Bradford was an NRC Commissioner 
during the Three Mile Island accident and today is an Adjunct 
Professor at the Institute for Energy and Environment at the 
Vermont Law School. He is also a former Chair of the New York 
and Maine Utility Commissions, and has advised many States on 
utility restructuring issues. He has also served on the board 
of the Union of Concerned Scientists. We welcome you back to 
the Subcommittee, Mr. Bradford. Nice to see you again.
    And finally, we have Dr. Singh, President and CEO of Holtec 
International, an energy technology manufacturing company that 
he established I believe 24 years ago, 1986. His company 
designs equipment and systems that improve the safety and 
reliability of nuclear and fossil fuel power plants. Dr. Singh 
serves on several corporate boards, including the Nuclear 
Energy Institute and the Board of Overseers at the University 
of Pennsylvania's School of Engineering and Applied Sciences, 
just up the road from Wilmington, Delaware.
    Again, we want to ask you to try to limit your statements 
to about 5 minutes, and the full content of your written 
statements will be included in the record.
    Welcome and all, and Mr. Meserve, why don't you kick us 
off?
    Thank you.

 STATEMENT OF RICHARD MESERVE, PRESIDENT, CARNEGIE INSTITUTION 
   FOR SCIENCE; FORMER COMMISSIONER, U.S. NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Meserve. Good morning, Mr. Chairman. I am very pleased 
to appear before you on behalf of the Bipartisan Policy Center. 
I am here to discuss the Nuclear Regulatory Commission's 
licensing process for new reactors.
    The Bipartisan Policy Center was created to help forge 
bipartisan consensus across a range of difficult policy 
challenges. Last fall, the NRC Chairman asked the Center to 
conduct an independent review of the progress that has been 
made in licensing new nuclear power plants. Together with 
former Senator Pete Domenici, who is currently a Senior Fellow 
at the Center, I co-chaired this effort. I very much enjoyed 
working with your former colleague.
    We began by conducting a series of confidential interviews. 
The group included former NRC Commissioners, representatives of 
reactor vendors, applicants for combined operating licenses, 
nuclear engineering firms, and representatives of environmental 
and other organizations. We also met with NRC staff.
    We then hosted a half-day forum to elicit additional views 
and comments. A copy of our letter report is attached to my 
testimony.
    I would like to highlight here in this oral testimony just 
a few of our key findings. Although the licensing process is 
new, we found that both the NRC and the industry have been 
diligent in pursuing the timely evaluation of license 
applications. The parties have experienced some problems. 
Nonetheless, there was a near unanimous view among the 
stakeholders that all parties had acted appropriately and in 
good faith, and the NRC has not needlessly delayed or extended 
the licensing process.
    The licensing process for new reactors that is now underway 
has been a learning experience for all involved. The licensing 
system embodied in Part 52 of the NRC's regulations had 
envisioned that applications for combined operating licenses 
would reference designs that had been certified and sites that 
had the benefit of an early site permit.
    As it happened, numerous applications for combined 
operating licenses were filed in parallel with applications for 
certified designs. The staff thus had the challenge of dealing 
simultaneously with a large number of overlapping applications. 
This was further complicated by the fact that new plant 
licensing has been dormant for many years and needed to be 
resuscitated. Overall, we believe that the NRC staff has done a 
remarkable job under trying circumstances.
    It was also clear from our interviews that there has on 
occasion been some miscommunication between the NRC staff and 
applicants, leading to some confusion and delay. Much of the 
confusion can apparently be traced to misunderstandings as to 
NRC expectations in regard to the level of detail required or 
expected in applications. In our judgment, many of these issues 
should resolve themselves as all sides gain more experience.
    The Commission and NRC staff should also strive to provide 
clear guidance to applicants. The Commission can and should 
continue to exercise clear leadership to ensure that the 
processing of the application continues with the same attention 
to detail and to efficiency as has been the case to date. The 
Commission should ensure that the lessons learned in the first 
round of applications are rigorously applied to make the 
processing of subsequent applications more efficient.
    The study revealed that both the NRC and the industry are 
genuinely respectful of each other's efforts. With clear 
leadership by the NRC, the lessons learned in the first round 
of applications should ensure that the processing of subsequent 
applications is both thorough and efficient.
    Thank you for the opportunity to testify. I am very happy 
to respond to questions.
    [The prepared statement of Mr. Meserve follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Good. Dr. Meserve, thank you so much.
    Dr. Bradford, please proceed.

 STATEMENT OF PETER A. BRADFORD, ADJUNCT PROFESSOR, INSTITUTE 
  FOR ENERGY AND THE ENVIRONMENT, VERMONT LAW SCHOOL; FORMER 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Bradford. Thanks very much for the invitation to 
testify today.
    Regulatory oversight hearings are of special importance 
now. From the housing and financial sector collapses to the Big 
Branch coal mining disaster, to the spreading oil in the Gulf 
of Mexico, we see consequences of insufficient precaution and 
enforcement in the face of risks that were known or knowable.
    The nuclear industry has shown that it is not immune. It 
will be kept safe by diligence and care and not by goals that 
emphasize growth or subsidy or governmental preference for a 
particular and a well established technology.
    I have arranged my testimony in four parts. First, the 
interplay between the NRC licensing process and the 
cancellations, cost overruns and delays that have affected 
nearly all of the license applications pending before the NRC; 
second, the experience of citizen intervener groups in the NRC 
licensing process, as revised since the last round of nuclear 
power plant construction; the third part remarks on areas of 
potential safety concern; and the fourth part reflects 
Vermont's recent experience with tritium leakage at the Vermont 
Yankee Nuclear Power Plant.
    Almost all of the applications for nuclear power plant 
licenses that were said to constitute a nuclear renaissance 
have fallen significantly behind their original schedules. Some 
have been canceled outright. Many have seen significant 
escalations in their cost estimates. Several are not being 
actively pursued.
    If the past is any guide, some will assert that the NRC is 
causing these delays and cancellations and that the dramatic 
cost overruns of the 1970s and 1980s were also caused by 
regulation and by delays brought on by licensing proceedings. 
No serious study of the causes of power plant delays confirms 
this, but the myth persists.
    The NRC licensing process is not the cause of these delays 
and cancellations today either. The cost increases have nothing 
to do with licensing, nor do the decline in demand, the falling 
cost of alternatives, or the customer backlash against rising 
rates. Unwillingness by Wall Street and by vendors to assume 
economic risk is not traceable to the NRC.
    In the years ahead, Congress will need to assure that the 
incentives for new reactors do not replicate the 2008 gold rush 
to the NRC's doors, overwhelming the goals of the revised 
licensing process and the NRC's own goals for sound regulation.
    As the Subcommittee knows, the NRC licensing process has 
undergone major revision in the last decade, primarily to 
assure early resolution of as many issues as possible. To date, 
aspects of this process have not gone smoothly. A major 
difficulty is that individual construction and operating 
license applications are being reviewed before the generic 
designs that they referenced have been approved or even 
finalized. This situation reverses the process contemplated 
when the new licensing rules were adopted, requiring 
participants in the COL proceedings to guess at the outcomes of 
the ongoing design proceedings.
    A second goal of the revised licensing process--about which 
the Commission has generally not been candid--has been to 
reduce the ability of the public to question either applicants 
or the NRC staff. The potential weakness of most regulatory 
processes in banking, housing, coal mine safety and oil 
drilling, as well as nuclear regulation, is the extent to which 
these processes rely almost exclusively on information provided 
by the regulated entities. If regulators compound this weakness 
by treating other potential sources of information, such as 
citizens' groups, whistleblowers, State governments, with 
hostility, then they are asking for trouble.
    The NRC has done this with new rules that prohibit cross-
examination by parties to its proceedings in most circumstances 
as well as by sharply curtailing discovery rights. These rules, 
adopted against the strong recommendation of the Commission's 
own licensing board chairman, are absolutely inconsistent with 
the agency's core principles of good regulation: independence, 
openness, efficiency, clarity and reliability.
    They are also potentially inconsistent with the behavior of 
an agency wise enough to welcome the skeptical function that an 
informed public can provide in an era of such widespread 
regulatory failure.
    The final portion of my testimony discusses the events 
surrounding the highly publicized tritium leakage at Vermont 
Yankee. Four interrelated reasons explain the high visibility 
of these events. First, Entergy's Vermont Yankee personnel had 
repeatedly incorrectly assured the State of Vermont, at times 
under oath, that the plant had no underground piping system 
carrying radionuclides.
    Second, Vermont Yankee had startled the public with a 2007 
cooling tower collapse. Third, the leaking tritium, though not 
detected offsite, progressed rapidly from insignificant 
quantities to much larger concentrations. And finally, the 
Vermont Senate voted overwhelmingly against approving operation 
of the plant after its current license expires in March 2012.
    The NRC has recently announced further reviews of its 
initiative in the area of groundwater protection. While the 
existing regulatory framework may be adequate, enforcement 
under it clearly leaves something to be desired. The public's 
tolerance for leaks of radionuclides from systems whose 
existence is denied by plant management before the event is 
inevitably low even when public safety is not directly 
threatened by the leaks.
    The sense conveyed by these failures that the older plants 
do not have their act together has embarrassed the industry and 
the NRC in ways incompatible with licensing new units or 
extending the lives and increasing the outputs of the existing 
plants.
    This completes my testimony.
    [The prepared statement of Mr. Bradford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Dr. Bradford.
    Dr. Singh.

STATEMENT OF K.P. ``KRIS'' SINGH, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, HOLTEC INTERNATIONAL

    Mr. Singh. Thank you, Chairman Carper. It is my pleasure to 
provide my perspective on the U.S. NRC and what may be done, 
particularly to help the people who have been the nuclear 
industry and now are kind of on the sidelines, namely the 
American worker.
    We have manufacturing facilities all over the United 
States. We have offices in New Jersey, in California. We also 
have manufacturing plants in Pennsylvania, in Pittsburgh, in 
Ohio, in Orrville, Ohio, and in Florida.
    These plants are where our people work, where most of our 
employees are. And their livelihood depends on where the 
nuclear industry goes, how it develops, and whether they will 
be able to apply their trades and their craftsmanship in the 
industry.
    We maintain one of the largest plants in the United States 
that manufactures nuclear power plant equipment in Pittsburgh, 
Pennsylvania. And we manufacture equipment there to all 
national and international codes, and we ship it all over the 
world.
    We are particularly known in the field of spent fuel, which 
was discussed here with some passion earlier in the 
testimonies. My appeal to the leadership in the country, and 
particularly to you, Mr. Chairman, is to not give up on 
technology. As we discuss the issue of spent fuel, we should 
also realize that people like us, with dirt behind our 
fingernails, are trying to make things better so fuel can be 
stored for a much longer time at the nuclear plants.
    We last year licensed an underground storage system where 
fuel would be completely underground in canisters. And we 
anticipate, our initial calculations show that that 
configuration will be stable with guaranteed absence of release 
[of radioactivity] for as long as 500 years.
    So the technology is moving forward. We should keep faith 
in the developments that are occurring, and I believe spent 
fuel will not be a problem for the growth and rise of the 
nuclear industry.
    But my central focus of this testimony is to present to you 
some problems that we face as exporters of nuclear equipment to 
overseas markets and as employers of American workers. One of 
our missions is to create jobs and we have been, I am glad to 
tell you, creating jobs even through this recession.
    We opened a plant in Orrville, Ohio, recently that we are 
increasing employment. It will go up to some 300 employees by 
the end of the year. The problem we have is that our export 
applications to the NRC, the applications for licensing 
equipment for export, go to the back of the bus. It does not 
get reviewed promptly, and our competitors overseas know it. 
They in competing against us inform the host country that if 
you buy from the American supplier, you are not going to get 
the licensed equipment in time, and time, of course, is of the 
essence.
    So what I am asking here is to direct the NRC that if we 
file applications for export to overseas markets, that they do 
get a high priority for review. Otherwise, it directly costs 
jobs in this country. It is a direct loss of jobs.
    The other point I would like to make is our companies here, 
no offense to George, are foreign-owned. Their ownership is no 
longer in the United States. And they do look at the market 
internationally. I believe and the initial evidence is that 
custom manufacturing work in the United States will not occur. 
Most of the work that will be generated from nuclear 
renaissance will in custom manufacturing of equipment 
components will go overseas. It already is, which means the 
plants where we employ people, we will not be able to boost 
employment, and this bad unemployment situation that exists 
right now will not be alleviated.
    When we put out ads for employees, for workers in Ohio, for 
every position we advertised, we had 200 to 300 applicants. 
That is how bad it is. And in the middle of all this, we are 
shipping work that is going to be developed here with 
government loan guarantees to go overseas. And I don't think 
that is terribly smart for any country. The U.S. seems to be 
the only country following that policy.
    So my request to you is to direct the regulatory powers of 
the NRC to help creating employment here, to help maintain our 
manufacturing know-how in this country so we don't complete de-
industrialize ourselves.
    Thank you.
    [The prepared statement of Mr. Singh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you very much for that message.
    Mr. Vanderheyden, welcome. Please proceed.

STATEMENT OF GEORGE VANDERHEYDEN, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, UNISTAR NUCLEAR ENERGY, LLC

    Mr. Vanderheyden. Thank you, Chairman Carper, and thank you 
for the opportunity to testify on the future of new nuclear 
energy and the critical role of the Nuclear Regulatory 
Commission's new licensing process, 10 CFR part 52.
    This oversight hearing demonstrates your commitment to 
refocus attention on performance and provide a sense of 
accountability.
    My name is George Vanderheyden. I am the President and 
Chief Executive Officer of UniStar Nuclear Energy, a strategic 
joint venture and an American company between Constellation 
Energy and EDF Group. I have been working in the nuclear 
industry for over 30 years.
    UniStar was formed after the passage of the Energy Policy 
Act of 2005 to support and advance the development of a fleet 
of new nuclear energy facilities. To date, UniStar and our 
partners have submitted four combined license applications to 
the NRC for nuclear energy facilities in Maryland, 
Pennsylvania, Missouri and New York.
    The United States has not built a new nuclear energy 
facility in more than 30 years. Given this fact, the Federal 
Government has attempted to address two historically 
problematic issues: the ability to finance the facilities and 
the regulatory uncertainty of obtaining a Federal license for 
construction and operation of the plant.
    The Federal Loan Guarantee Program is an important first 
step at addressing the financial challenges of raising the 
investment capital. UniStar's proposed Calvert Cliffs 3 project 
in southern Maryland remains one of the three projects under 
consideration for a share of the remaining congressional 
appropriation.
    My testimony today is based on UniStar's experience as a 
current participant in the NRC's licensing process. The Part 52 
process allows the NRC to issue a single license before the 
start of construction to ensure that licensing issues are 
addressed prior to significant expenditures. While this process 
holds much promise, it has never been fully executed.
    Our interactions with the NRC staff have been professional 
and transparent. The NRC is using new project management tools 
such as resource loaded schedules and earned value metrics to 
manage and monitor the simultaneous licensing of 13 independent 
applications.
    I am encouraged by the high level of commitment 
demonstrated by the NRC staff to act in a fair and consistent 
manner, and it is my judgment that they are meeting their 
principles of good regulation.
    However, in terms of planning of a project of this 
magnitude, the most critical milestone is the issuance of the 
combined license by the NRC. As of today, the NRC has not 
provided a target combined license issuance date for any of our 
projects. It is not our intent to expedite the review process 
in a way that would compromise safety or lose the public's 
confidence in the NRC. The goal should be to create a 
predictable process that results in a reasonable certainty for 
the start of safety related construction for project 
applicants.
    Second, as in all major projects, there is an opportunity 
to improve and to capitalize on lessons learned from the 
initial licensing efforts. There is not enough detail provided 
to the applicant in the current NRC scheduling process. This 
lack of detail inhibits the development of comprehensive 
lessons learned and improvements to the efficiency of future 
licensing efforts.
    We believe that this commitment to a rigorous lessons 
learned process and self-assessment could result in reducing 
the NRC review time for the next wave of combined license 
applications from approximately 42 months to as little as 24 
months.
    I believe that the NRC's principles of good regulation 
provide an appropriate self-assessment mechanism for the 
Commission and the NRC staff. Therefore, I encourage you to 
request the NRC to provide quarterly feedback to this 
Subcommittee on how the NRC comports with these principles in 
the new licensing process.
    This should be coupled with public and industry comments on 
the NRC's performance, as well as periodically holding license 
applicants such as UniStar Nuclear Energy accountable to the 
timely implementation of the new license process.
    We are working with the NRC staff to improve efficiency by 
examining opportunities for schedule acceleration and to create 
schedule certainty. We support the Commission's ongoing 
independent examination of the license hearing process to 
identify ways to improve and streamline.
    A similar effort in 2009 was successful in significantly 
reducing the duration of the certified design rulemaking 
process. We believe such opportunities also exist for the 
combined license process.
    In closing, I would like to thank the Subcommittee. We have 
an opportunity as a Nation to create jobs, stimulate the 
economy, rebuild the domestic manufacturing infrastructure, and 
curb greenhouse gases with nuclear energy. UniStar and its 
partners have already invested in the creation of 850 jobs in 
Maryland, Virginia and North Carolina. In addition, our 
partner, Alstom, is investing $200 million and creating 350 
manufacturing jobs in Tennessee, while AREVA is investing $360 
million and creating 500 jobs at Newport News.
    Mr. Chairman, I have submitted greater detail in my written 
statement, but that concludes my prepared remarks. I am 
available for questions.
    [The prepared statement of Mr. Vanderheyden follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Good. Thank you for that overview.
    What I am going to do here initially is just to ask each of 
you to take a minute or two and to react to some of what you 
heard your colleagues on this panel say. You could just say, 
well, that is interesting, or you could say, well, I don't 
agree with that. Or maybe you do or not. But I would just like 
to hear your reaction to some of the comments that your 
colleagues have made on this panel.
    Mr. Meserve. I would be very happy to react. I think that 
actually when one steps back, that the testimony you heard was 
really very consistent among all of the witnesses. I fully 
agree with Mr. Bradford's comments that the slow-down in the 
process of proceeding with the licenses is not because of 
regulatory concern. In this financial climate, it is very 
difficult to finance nuclear power plants.
    I also agree that it is essential, as he has emphasized, to 
make sure that the safety concerns are not only evaluated in 
the licensing process but are ones that are demonstrated to be 
evaluated in the licensing process.
    I think that there is a great complexity that has been 
confronted by the NRC in dealing with the fact that they were 
operating at the same time with the certified design 
applications being processed as the same time they were trying 
to process the combined operating licenses. There is an 
interplay between the two that had not been anticipated. That 
has created grave complications for interveners. It has created 
complications for the applicants as well to try to sort things 
out.
    I think the important thing going forward is to make sure, 
as I think all of us have emphasized with regard to the new 
reactors, that the process is one in which one learns from the 
current experience, gets efficiencies into the process, while 
still maintaining the thorough evaluation which the public is 
entitled to and expects.
    Senator Carper. Thanks.
    Dr. Bradford, would you just react to some of the comments 
of your colleagues, please?
    Mr. Bradford. Let me pick up perhaps on the quest for 
predictability because in the two and a half decades I spent 
actually regulating, I think I always heard that the process 
needed to be more predictable.
    But it is important to understand that predictability is 
something of a two-way street. It does depend very heavily on 
the quality of the initial applications and also the quality of 
the response to the regulators' questions. It can't just be a 
matter of the legislative body establishing firmer deadlines 
and firmer oversight of the Regulatory Commission. There has to 
be a firm basis for the regulatory agency to go forward.
    My understanding, just as an observer, is that the NRC has 
had problems with some of the applications, both for combined 
operating licenses and for generic designs in terms both of the 
adequacy of the application and the adequacy of the response.
    It will be important to factor that in in terms of an 
embrace of a goal of predictability. You just can't get there 
unless you are dealing with very high quality applications.
    Second, it is worth recalling that the 2005 Act was passed 
somewhat in the context of the MIT report--Dr. Meserve was 
involved in it--recommendation of a few first mover plants and 
the need to stimulate those and get the process going. That 
might perhaps have been manageable in the context of reviewing 
the generic designs that were pending. But unfortunately it was 
done in such a way that it triggered a much larger rush of 
applications than a few first mover plants.
    So you now have a situation in which a much larger and less 
well coordinated slug of work than was contemplated is going 
through the NRC process that is going to take several years.
    My additional concern arising from both this testimony and 
the previous panel's interaction with the Committee is that 
steps are now being taken that will make that dilemma even 
worse. That is, the piling of yet a larger number of 
applications into a regulatory process that is already having a 
great deal of trouble dealing with the ones that it already 
has.
    Senator Carper. Good. Thank you. Thank you for those 
comments.
    Dr. Singh, some reactions, if you would, to your 
colleagues' comments.
    Mr. Singh. I will be glad to follow on. The one thing that 
we should realize that the NRC is undergoing a huge turnover in 
staff. The experienced people are retiring. They are bringing 
in new people, and the new people, of course, are not as versed 
in NRC's principles such as reliability. And we are seeing a 
great deal of changes and confusion in their regulatory 
positions coming from the staff. And that is making licensing 
longer. It is consuming more of NRC's resources. It is causing 
trouble all the way around.
    To the extent that NRC were to increase its training and 
indoctrination programs and have additional resources, they 
will need to get to them, and they will need to deal with these 
basic principles that people have talked about here, such as 
reliability, consistency in rulemaking and so on. We have a 
problem there right now.
    The other area is employment, which is, as I said, a 
central theme of my presentation here. I am very pleased to 
hear that UniStar and their partners are establishing 
employment centers in the country, and that will help. And that 
is wonderful. But I think that from the NRC standpoint, and I 
say that in my written testimony that I have submitted, it 
probably would be not abnormal for the Government to direct the 
regulator that for applications that will create jobs within 
the U.S., they will get priority. They will all be reviewed, 
but the ones that will create greater employment in the country 
will get priority.
    I don't think that is illegal. I don't think it is against 
WTO rules. I am speaking for the people who don't have work. I 
get letters from them every month asking for employment. And I 
say something is wrong if people with 20, 30 years of first 
rate experience in making things are sitting home. That just 
isn't right.
    Senator Carper. Good. Thank you. I agree.
    Mr. Vanderheyden, any comments and reflections on your 
colleagues' remarks?
    Mr. Vanderheyden. Yes, thank you, Senator Carper.
    I think actually as Dr. Meserve said, I think there is more 
in agreement than we disagree on.
    Senator Carper. Sometimes that happens.
    Mr. Vanderheyden. That does happen, and it is good. I agree 
with Dr. Bradford's comments, and I would sort of summarize it 
this way in my own words. New nuclear energy cannot advance in 
this country without a strong regulator, nor can it advance 
without a public that has confidence that we have a strong 
regulator, and also confidence in us as the applicant.
    To further some of those comments and give you some 
statistics, as we pursued our new nuclear project in southern 
Maryland, we have had so far over 15 public meetings. And we 
have had over 1,000 members of the public participate in those 
public meetings and provide comments to both us, the Nuclear 
Regulatory Commission, the State of Maryland, and the local 
community that also is required to permit these projects, on 
what they think is necessary in order to protect their health 
and safety.
    And in all cases, we have honored those requests and 
answered those questions to the point that we have answered 
today some 1,937 questions and requests for additional 
information from both our regulators and the public.
    I do think that in this environment of a very open and 
transparent process in dealing with the regulator and the 
public, it is still important that we set at least goals and 
targets versus requirements, but goals and targets for the 
completion. Because it is important to us to have a relatively 
predictable process, given these are multi-billion dollar 
projects.
    And I just would recommend, as was discussed between 
yourself and Senator Lamar Alexander, I thought that was an 
excellent discussion, that you review our requests for 
additional congressional oversight. And I meant what I said to 
hold both us as the applicant, as well as the NRC, accountable 
to completing these efforts that are important for our country.
    Thank you.
    Senator Carper. Thank you for those comments.
    I want to come back to the central theme, if I could, of 
Dr. Singh's comments on employment. As our folks, both 
Democrats and Republicans, here like to say, and I suspect 
Independents, we have a couple of Independents, too, that our 
priority for this year has been really three-fold. The first 
most important priority has been jobs. The second has been 
jobs. And the third has been jobs.
    We are proud in Delaware that sometime in 2012, the 
deployment of a windmill farm 12 miles off the coast of 
Rehoboth Beach will proceed. And we are excited about the 
prospect of the clean energy that it will create. We have this 
vision of eventually windmill farms maybe from off the coast of 
North Carolina up to Maine, and all kind of linked together and 
providing carbon-free energy for fleets of plug-in hybrid 
vehicles, some of which would be made in Wilmington, Delaware, 
at an old G.M. plant by a new car company called Fisker.
    And that seemed to me to be a pretty good vision. It would 
be unfortunate if the windmills and the windmill farms and 
transmission systems, and frankly, if the plug-in vehicles were 
all made someplace else or components made someplace else. If 
we let that happen, shame on us.
    When I hear your comments, Dr. Singh, with respect to 
nuclear, I am reminded that the same is true with other forms 
of carbon-free electricity.
    Let me ask our colleagues on the panel just to focus, to 
drill down, if you will, probably the wrong term right now, 
drill down, but to drill down on Dr. Singh's comments about 
revitalizing the manufacturing base in this country and 
particularly with respect to the nuclear industry. If others 
would reflect on what he said and share your thoughts with us, 
including what we ought to be doing legislatively either in 
Congress or the Administration, maybe the NRC. I would welcome 
your thoughts.
    Yes, sir. Mr. Vanderheyden.
    Mr. Vanderheyden. I agree with Dr. Singh's comments and the 
importance of jobs, jobs, jobs, as you said, Senator Carper. 
And I would just state that when we started UniStar Nuclear 
Energy back in 2005 with the passage of the Energy Policy Act, 
one of our requirements that we did not need to do, but we 
thought was very important, to Dr. Singh's comments, is anyone 
that does business with UniStar Nuclear Energy, wherever they 
may be around the world, is required to reinvest in America and 
required to reinvest in jobs in the United States.
    And I mentioned earlier that we signed a very large 
contract with our strategic partner, Alstom, who is a French 
company, to Dr. Singh's comments, but what they did was 
reopened the facility in Chattanooga that has been closed since 
the 1950s. And as I mentioned, created about 350, they are in 
the process of creating 350 manufacturing jobs. And that 
facility will actually have its grand opening in about a month.
    So it has been our passion, and it has been our requirement 
that for foreign companies that we do business with, they open 
U.S. offices.
    Senator Carper. Dr. Bradford, any comment?
    Mr. Bradford. The jobs issue with regard to new nuclear is 
a complicated one. Let me just give you a sense of the way I 
have seen it playing out in Florida, where I have been involved 
in a couple of regulatory proceedings.
    Right now what is happening as a result of laws the State 
has passed, electric rates are going up in order to pay for the 
Levy County and Turkey Point units, even though the two 
utilities that want to build them have not made a firm 
commitment to do so.
    So there's been a backlash among the industrial customers 
and the large commercial customers saying essentially this is a 
job killing proposition in the short run when we most need new 
jobs, because we are paying higher electric bills which has an 
interplay with our productivity and the number of people we can 
employ. But the jobs in terms of nuclear construction are 
pretty minimal. A fair part of what we are paying is going to 
hold places in line in Japan where the equipment will be 
manufactured.
    So the new nuclear jobs are off in the future and the 
recession we are trying to deal with is imminent.
    The second concern, which comes from my own experience 
regulating in the Northeast during the last round of nuclear 
construction, is similar. That is that utilities heavily 
committed to building a new nuclear plant, especially one on 
which the costs seem endlessly to be escalating, will de-
emphasize alternatives.
    We saw Public Service in New Hampshire fighting against the 
Hydro-Quebec transmission line to supply the Boston area 
because of concerns about the marketability of Seabrook Power. 
We saw the Long Island Lighting Company reluctant to expand its 
gas system because of the need to protect the market for 
Shoreham. We saw resistance throughout the region to energy 
efficiency programs as long as the struggles over those two 
plants, as well as Nine Mile 3, were continuing.
    So, yes, there certainly are jobs to be created in building 
new nuclear plants, but it is important to focus on the net 
impacts, not the gross impacts. And it is much less clear that 
the net impacts are all that favorable, especially in the short 
run.
    The situation, I should add, is somewhat different in 
Maryland's case where you don't have a Utilities Commission 
regulating generation and therefore can't charge construction 
work in progress, and so you are not seeing those short-run 
rate impacts.
    Senator Carper. Thank you.
    Dr. Meserve, any comment?
    Mr. Meserve. Well, let me say I can comment on this, but I 
cannot comment on this from the perspective of the Bipartisan 
Policy Center because we did not look at this issue. And I am 
considerably less knowledgeable than some of my other panelists 
on this subject.
    I think it is apparent if one thinks about the actual 
construction of the plant that a lot of the construction 
workers, a lot of the craft workers, ultimately the operators 
of the plants are going to be Americans. The issue is going to 
be for the equipment that goes into the plants, various pumps 
and those sorts of things. And because we haven't built plants 
in the United States for a long time, we have some reliance 
that we have to have on foreign vendors for those things.
    My expectation would be that once there is a market and we 
build more nuclear plants that market forces will apply and 
that these business opportunities, people will take them.
    You started this with a question whether there is anything 
that the Congress could do in this area, and I don't have a 
clear answer to that. It does seem to me that there is a phase-
in problem and that you need to get these things in place, 
certainly in terms of personnel. Having educated personnel is a 
pipeline issue in terms of having people who have the necessary 
education. I know that traditionally Congress has tried to 
stimulate that in various ways, and that is clearly appropriate 
with regard to some of these issues.
    Senator Carper. Thank you.
    Let me come back to Dr. Singh for a follow up. Americans 
regard ourselves as the early pioneers. We are the early 
pioneers of nuclear technology. And at least to me, American 
nuclear manufacturing and technology represents maybe the 
highest quality of safety and reliability. Is that a statement 
you would agree with?
    Mr. Singh. Yes, I absolutely do. Nuclear energy originated 
here. This is where it became a safe form of energy. If you 
look at the parallel development in the Soviet Union, they 
ended up in Chernobyl. The development of safe nuclear power in 
the United States, this is where it occurred, and it is a 
matter of pride for human civilization, what happened from the 
mid-20th century and continuing on now.
    The tragedy is that in the past 30 years, as Mr. Meserve 
said, there has been significant loss of manufacturing base. 
Yet, I would also state that there is enough of the residual of 
that base available here that we can build. We can begin 
building all of the complicated equipment that currently is 
going overseas.
    Now, all I am asking is that the multinationals who operate 
in this country through the regulatory process get some 
incentives to explore those domestic resources. We can revive 
manufacturing in the United States. And I think it could be the 
critical technology base for the country. It is the same people 
who make aircraft carriers, the same people that make defense 
equipment, the same know-how, welders, fitters. It is the same 
skill sets.
    And we have billions in loan guarantees coming from 
American taxpayers. Heck, we should also channel the 
legislation, the law, the guidance in such a way that these 
people instead of watching daytime television are working in 
factories making the equipment and keeping our technology know-
how intact in this country.
    Senator Carper. Thank you.
    A group of us in the Senate had the privilege of spending 
some time yesterday afternoon with Chairman Ben Bernanke, the 
Chairman of the Federal Reserve, and we talked about a wide 
range of subjects. One of the issues we discussed was the state 
of the economy and economic recovery.
    I mentioned to him that oftentimes when we see our economy 
bouncing back as it is today, it is not uncommon for the 
resurgence to be led by consumer spending. Or it is not 
uncommon for it to be led by home building, the housing 
industry. This is one of those recoveries which has the very 
real potential of being led by manufacturing, a resurgence in 
manufacturing.
    We were part of a meeting that Senator Stabenow of Michigan 
hosted earlier today with a number of green energy companies 
from around America, some pretty big ones and some fairly 
small. And I was very much encouraged by what they are 
reporting in terms of increased business, increased employment 
opportunities, and the potential for more.
    They pretty much had a consistent message for us, in their 
view, to really launch the tsunami of economic activity and 
creating jobs and technologies that we cannot only use here, 
but export abroad with respect to conserving energy and 
providing carbon-free energy. Basically, there are three things 
that we ought to do. The first thing that they suggested was 
put a price on carbon. The second thing they asked us to do is 
put a price on carbon. And the third thing they asked us to do 
was put a price on carbon.
    So my hope is that we find ways to use less energy, and 
that we will find a way to put a price on carbon. We have 60 
votes here and should be able to send something to the 
President's desk this year.
    I will just make this a short question and ask you just to 
comment very briefly, Dr. Singh. But with respect to our 
nuclear manufacturing base and the technology, if we lose our 
nuclear manufacturing base, and I think we have gotten pretty 
close to losing it, but if we lose it altogether in this 
country, does that somehow threaten our energy and our national 
security? If you could each briefly comment on that, I would 
appreciate it.
    Mr. Singh. I believe so. I believe that a country that 
loses its base for manufacturing complicated weldments, vessels 
and component systems that involve complicated welding and 
fitting and machining, if it loses that base, then along with 
it it loses a level of national security. After all, in times 
of crisis, you are not going to order the warships to be made 
in China.
    And if you don't have domestic welders and fitters, and 
please realize it is a skill that is acquired over decades. 
People work. They learn. They acquire the knowledge to make 
complicated things. And if we put them out of work, and we keep 
them out of work, and they get old, and they pass on, you 
basically have de-industrialized yourself.
    And that is where this country is at. The people I worked 
with 30 years ago, they have retired. Most have died. And there 
are no replacements because there is no work in this country. 
The work has gone overseas. So it is a matter of national 
security.
    Senator Carper. I want to turn to the subject of openness 
and transparency for a little bit, if we could, and invite 
several of you to comment on that. I would be interested 
especially in Dr. Bradford your thoughts and comments, maybe 
those of Dr. Meserve, but really anyone.
    The Congress used to operate with a lot less openness and 
transparency than we do today. Sessions like this were not 
televised. We had reporters who could attend, but they weren't 
generally made available to a variety of media to people 
throughout this country, throughout the world. We didn't 
televise the Senate or the House in session. I think the House 
went first and then later the Senate.
    I will be real honest with you. Sometimes I have probably 
been guilty of this before, but every now and then discussions 
can be more fruitful to an extent when they are held in 
confidence than if they are broadcast live. Every now and then 
I have seen a couple of my colleagues, I won't use the term 
demagogue, an issue, but say some things in public for public 
consumption that maybe in their hearts they didn't fully 
subscribe to.
    On the other hand, people in this country have a right to 
know what we are thinking and what we are doing. And so there 
is a tension here on what is the right amount of openness and 
transparency, and maybe can there be too much of a good thing.
    I would welcome any thoughts that Dr. Bradford and Dr. 
Meserve and others have on this point. This is probably my last 
question.
    Dr. Bradford.
    Mr. Bradford. I certainly can sympathize with the 
proposition that some forms of openness can be corrosive in 
terms of discussions that go on within a group. I have chaired 
commissions that were subject to sunshine laws, and I have 
chaired commissions that weren't.
    In most respects, it didn't make that big a difference, but 
from time to time I saw exactly what you have seen, the 
demagoguing of an issue because of a public forum. To me, the 
public access to information, that is the freedom of 
information law, is a much more vital protection than sunshine 
law types of arrangements, the ability to get at the documents, 
get at the numbers.
    For example, just to pick on that is current, the 
Department of Energy's proposal to withhold the amount that it 
will charge for loan guarantees seems to me to be just 
incomprehensible in terms of principles of transparency. But 
that is different from sunshine law types of concerns.
    The other area that is of concern to me in terms of 
openness in governance principles are, as I mentioned, the ways 
in which, it seems to me, the Commission has closed off access 
within its proceedings to effective participation by intervener 
public interest citizen groups, even State government 
participants, by denying cross-examination, by denying 
discovery.
    I have been an expert witness often enough in the last few 
years to know that there is a big difference between the level 
of scrutiny one experiences in a proceeding that allows real 
cross-examination by lawyers representing interested parties 
and ones where the cross-examination function is somehow 
funneled entirely through the presiding officer.
    There is a lot more effective openness when the attorneys 
are actively participating. And there is not a big time savings 
to be had from foreclosing that road. What does change is the 
exposure of the applicant and of the NRC staff to potential 
embarrassment if they have done something wrong, but that is 
exactly what you don't want to protect.
    So it is in those areas that I am most concerned.
    Senator Carper. Thank you.
    Dr. Meserve.
    Mr. Meserve. Let me say, I understand there has been some 
comment or criticism that the actual processes within the 
Commission itself have been some doubt about the openness 
issues there. I am not going to comment on the hearing issue, 
which usually typically involves a licensing board.
    In my experience, it is a very open process that the 
Commission currently follows. And I would be cautious about 
changing it in radical ways. I say it is an open process in the 
following sense. Typically, when there is an important issue, 
there is a staff paper that is prepared. It is called a SECY 
document. It is one of those acronyms.
    Senator Carper. What is it called?
    Mr. Meserve. S-E-C-Y. It indicates that the Secretary 
circulates it to the Commission.
    Senator Carper. Thank you.
    Mr. Meserve. But that goes to the Commission, and it is 
available publicly at the same time the Commission is 
deliberating. Typically, the Commission has a public meeting on 
an important issue where it brings in panels of people who have 
stakes in these issues, and it has an opportunity for 
interchange with them in a fully public process.
    And then the next step is then a voting process within the 
Commission. And that typically involves--it always involves the 
preparation of a written vote which is then circulated among 
the Commission and eventually becomes a publicly available 
document, as it should be.
    I would be quite hesitant on changing the notation process. 
And I am not sure that there is any serious proposal to do so. 
Because in many respects, on the issues that the Commission 
decides, they are detailed technical issues that involve 
congressional history at times; at times involves 
interpretation of statute; involves detailed engineering 
questions.
    And actually having written submissions from each of the 
Commissioners explaining their vote and how they got there is a 
very useful exercise for not only crystallizing their own 
thinking but also making transparent to the public exactly how 
people came out in a way that would not otherwise be available.
    And I can note from my own experience that there were times 
when, after people reviewed the written vote from someone else, 
they changed their own vote in a way that would never have 
happened at a meeting because they had an opportunity to think 
about the vote, look at the review materials, and so forth.
    And so I am sure there are ways the process could be 
improved, but I think that to the extent that the notation 
voting process itself is being criticized, I think that we 
ought to be quite cautious before we make changes in it.
    Senator Carper. Dr. Singh, Mr. Vanderheyden, any comments 
at all?
    Mr. Singh. Thank you, Mr. Chairman. I have no comments. I 
am looking to catch the train.
    [Laughter.]
    Senator Carper. All right. I know that feeling. I know that 
feeling every day.
    It has been terrific, and you are good, some of you, to 
come back again to share your thoughts with us in this forum. 
It has been very constructive and instructive, which is what I 
hoped would happen.
    Some of my colleagues will have some questions they would 
like to submit to you for the record. I may have one or two as 
well. And my staff reminds me that we will have 2 weeks to 
submit the questions to you, and we would ask that you respond 
promptly.
    I want to thank our staff for the work that they have done 
in helping us prepare for this hearing, and to each of you who 
joined us today.
    Good luck on catching that train, and I hope to catch one 
later today myself.
    Thanks very much. This hearing is adjourned.
    [Whereupon, at 12:50 p.m. the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
